<html>
<title> - GLOBAL TERRORISM: SOUTH ASIA--THE NEW LOCUS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                           GLOBAL TERRORISM:
                        SOUTH ASIA--THE NEW LOCUS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2000

                               __________

                           Serial No. 106-173

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
68-482 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                 John P. Mackey, Investigative Counsel
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Michael A. Sheehan, Ambassador-at-Large, 
  Coordinator for Counterterrorism, U.S. Department of State.....    10
Alan W. Eastham, Jr., Deputy Assistant Secretary, Bureau of South 
  Asian Affairs, U.S. Department of State........................    13

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    46
The Honorable Peter T. King, Representative in Congress from New 
  York...........................................................    48
The Honorable Joseph R. Pitts, a Representative in Congress from 
  Pennsylvania...................................................    49
The Honorable Jim Saxton, a Representative in Congress from New 
  Jersey.........................................................    50
The Honorable Gary L. Ackerman, a Representative in Congress from 
  New York.......................................................    51
The Honorable Robert Wexler, a Representative in Congress from 
  Florida........................................................    54
The Honorable Michael A. Sheehan.................................    56
Alan W. Eastham, Jr..............................................    69

Additional material submitted for the record:

U.S. Department of State On-the-Record Briefing Release from 
  Secretary of State Madeleine K. Albright, and Michael Sheehan, 
  Counterterrorism Coordinator...................................    77
Newspaper editorial from the Washington Times by Ben Barber on 
  ``Afghanistan: Seat of Terrorism Shifts to South Asia,'' dated 
  Tuesday, May 2, 2000...........................................    78

 
              GLOBAL TERRORISM: SOUTH ASIA--THE NEW LOCUS

                              ----------                              


                        WEDNESDAY, JULY 12, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. I am pleased to call to order today's 
hearing on global terrorism. In particular, we will focus on 
the most recent shift in the patterns of international 
terrorism to South Asia. This move away from the more 
traditional Middle East-based terrorist activity clearly 
deserves our attention and careful policy analysis.
    Earlier this year, Secretary of State Madeleine Albright 
noted that the shift of the center of gravity for international 
terrorism has been eastward, toward Afghanistan in Southwest 
Asia.
    Each spring, under congressional mandate since the mid-
1980's, the Administration publishes a report called Patterns 
of Global Terrorism. This report provides the Congress and the 
public with the latest trends and developments in international 
terrorism.
    The report for 1999 establishes that South Asia is the new 
locus of international terrorism, presenting both a regional 
threat and a growing threat to our nation. We will examine what 
this new trend means for our nation.
    Afghanistan has emerged as a safe haven for master 
terrorists like Usama bin Laden and his radical supporters. We 
have on display today the State Department's wanted posters for 
bin Laden, offering a $5 million reward for his capture.
    Neighboring Pakistan, which has long supported the Taliban 
to its west and those bent on violence in Kashmir to its east, 
also contributes to the emergence of South Asia as the new 
locus of international terrorism.
    Recent press reports indicate that the Russian intelligence 
services believed that the Taliban in Afghanistan promised to 
help Chechen rebels with weapons, training, and possibly even 
with trained fighters from Taliban camps in Afghanistan. The 
Taliban vehemently denied those serious Russian charges. We 
will examine that issue today as well.
    Through a coordinated law enforcement approach, many 
terrorist threats emanating from South Asia were thwarted last 
year. As a result, American deaths from terrorism were down to 
five in 1999, one of the lowest levels in several years, and 
for that we are grateful. It is a sad but undeniable fact that 
Americans are often the most frequent terrorist targets around 
the globe.
    The 1999 annual terrorism report notes that we have 
repeatedly asked Pakistan to end their support to elements that 
conduct terrorist training in nearby Afghanistan. We also asked 
that Pakistan interdict travel of all militants to and from 
camps in Afghanistan, to prevent militant groups from acquiring 
weapons and to block financial and logistical support for the 
camps.
    In addition, the State Department's latest terrorism report 
notes that Pakistan officially supports Kashmiri militant 
groups that engage in terrorism.
    The recent report from the congressionally mandated 
National Commission on Terrorism noted Pakistan's occasionally 
excellent cooperation with the United States in fighting 
terrorism. However, the Commission also pointed out the 
consistent Pakistani support for terrorism in Kashmir. The 
Commission's report also called for naming Afghanistan as a 
state sponsor of terrorism so that all the sanctions against 
such a terrorist nation could be applied.
    The new threat of radical Islamic terrorism emanating from 
the region can often be found in a loosely knit group of 
terrorists once trained and hardened in the war against the 
former Soviet Union in Afghanistan.
    Today on the new battlefields in Chechnya and Kosovo, where 
war-making and fighting skills are honed and perfected, some of 
these radical Islamic elements have been learning skills that 
later can be used against our nation and others in radical 
terrorist acts.
    South Asian also presents new concerns for the war on 
drugs. By taxing rather than fighting the drug trade, the 
Taliban has effectively sided with the heroin producers and 
against innocent people, particularly our young people. The 
drug trade is also proving to be a lucrative resource for bin 
Laden's terrorist network.
    We are fortunate to have with us today the Coordinator for 
Counterterrorism in the Secretary of State's Office, who helps 
prepare the annual report on global terrorism and can help us 
sort out what this new shift means.
    We are also joined by the Deputy Assistant Secretary of 
State for South Asian Affairs. Both of these witnesses will 
bring their expertise to our inquiry today.
    Ambassador Sheehan, who, of course, oversees the 
preparation of the global terrorism report, is prepared to 
answer any questions on terrorism, and of course, no member is 
limited on what area of the globe he would like to address.
    Before we start with our witnesses, I welcome any comment 
from our Ranking Democratic Member, Mr. Gejdenson.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I commend you for calling this hearing. Both the State 
Department report and the Bremmer Commission report point out 
what we have suspected for some time, that global terrorism is 
increasingly a collaboration and a coordinated effort.
    As you have indicated, it has moved from its home in the 
Middle East and North Africa now into South Asia, and certain 
factors, the disintegration of Afghanistan in the post-Soviet 
era, the situation in Pakistan, a country that is now once 
again in military rule with a weakened civil society, and 
increased influence of religious clerics and their schools 
makes for a dangerous situation.
    Usama bin Laden, seen often as the primary enemy of the 
United States or one who has chosen the United States as his 
primary enemy, seems to make his home in that region.
    We in this country need to work with our allies globally. 
We have had some cooperation from Pakistan through the years, 
but reading this last June 25 New York Times magazine article 
on the education at religious schools leaves one with a very 
uneasy feeling. The authors go on to talk about these jihad 
factories where young men are educated in a way that seems to 
direct them to take on the West.
    We have had cooperation from Pakistan, but we also have 
challenges coming from there, and we certainly feel that the 
reestablishment of democracy and a civil society is critical to 
make progress in that country.
    The Afghanistan situation is much more complicated. A 
country that has seen war for so long, its political situation 
has disintegrated. The economic situation has left many in 
despair, and it now seems to be a country that processes drugs 
and terrorists more than almost any other activity.
    We need to pull and work with our allies and friends to 
contain and end this threat, which as you pointed out, often 
targets Americans first.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Any other Member seeking recognition?
    Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, thank you very much, and 
thank you very much for holding this hearing.
    As we discuss terrorism in South Asia, I think it is 
important to renew the Members of this Committee and the 
public's acquaintance with the request that I have made for the 
last 3 years concerning American policy toward the Taliban 
because, as we examine terrorism in South Asia, one cannot help 
but recognize that if it were not for the fact that the Taliban 
are in power, there would be a different equation going on. 
There would be a whole different situation in South Asia.
    After a year of requesting to see State Department 
documents on Afghan policy, and I would remind the Committee 
that I have stated that I believe there is a covert policy by 
this Administration, a shameful covert policy of supporting the 
Taliban, the State Department after many, many months--actually 
years of prodding--finally began giving me documents, Mr. 
Chairman. In the assessment of those documents, I have found 
nothing to persuade me that I was wrong in my criticism.
    I might add, however, that there have been no documents 
provided to me even after all of these years of requesting it. 
There have been no documents concerning the time period of the 
formation of the Taliban. Again, I would hope the State 
Department gets the message that I expect to see all of those 
documents.
    The documents that I have read, Mr. Chairman, indicate that 
the State Department time and again has had as its position 
that they have no quarrel or that it would give them no 
heartburn to have the Taliban in power, this during the time 
period when the Taliban was struggling to take over 
Afghanistan.
    Although the Administration has denied supporting the 
Taliban, it is clear that they discouraged all of the anti-
Taliban supporters from supporting the efforts in Afghanistan 
to defeat the Taliban, even so much as when the Taliban was 
ripe for being defeated on the ground in Afghanistan. Bill 
Richardson and Karl Inderfurth, high ranking members of this 
Administration, personally visited the region in order to 
discourage the Taliban's opposition from attacking the Taliban 
when they were vulnerable, and then going to neighboring 
countries to cutoff any type of military assistance to the 
Taliban, this at a time when Pakistan was heavily resupplying 
and rearming the Taliban.
    What did this lead to? It led to the defeat of all the 
Taliban's major enemies except for one, Commander Masood in the 
north, and left the Taliban the supreme power in Afghanistan.
    So when we hear today about terrorism and crocodile tears 
from this Administration, let us remember this Administration 
is responsible for the Taliban. This Administration has acted 
in a way that has kept the Taliban in power.
    One last note. Many people here understand that I have been 
in Afghanistan on numerous occasions and have close ties to 
people there, and let me just say that some of my sources of 
information inform me of where bin Laden was. They told me they 
knew and could tell people where bin Laden could be located, 
and it took me three tries before this Administration responded 
to someone who obviously has personal contacts in Afghanistan 
to even investigate that there might be someone who could give 
them the information.
    And when my informant was actually contacted, he said that 
the people who contacted him were half hearted and did not 
follow through, did not appear to be all that interested, 
appeared to be forced to be talking to him.
    Mr. Chairman, we are concerned about terrorism. We are 
concerned about the Taliban because we believe in human life 
and human dignity. The worst terrorist acts of the Taliban are 
committed against the women of their own society, and let us 
not forget that.
    But none of the terrorism which we will hear about today by 
Mr. bin Laden or others would be taking place with Afghanistan 
as their home base if it were not for the policies of this 
Administration. This Administration has had a policy concerning 
the Taliban which has created this terrorist mess, which I 
predicted in this body on numerous occasions 3 and 4 years ago.
    So I think I am pleased that you have called this hearing 
today, but let's keep this testimony in perspective.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    I am pleased to recognize the Minority Whip, the gentleman 
from Michigan, Mr. Bonior.
    Mr. Bonior. Mr. Chairman, thank you so much for your 
indulgence and your courtesies for letting me say a few words 
this morning.
    I want to thank you and all the Members of the Committee 
for the opportunity to be with you today. I look forward to the 
testimony that Ambassador Sheehan and Deputy Assistant 
Secretary Eastham will be presenting.
    On earlier occasions, the Administration has expressed the 
importance of working with Pakistan in addressing terrorism in 
South Asia. I also believe that cooperation with Pakistan 
continues to be very much in our national interest.
    Combating and preventing global terrorism is one of the 
most serious challenges facing America's foreign policy in this 
new era. It is my belief, Mr. Chairman, that Pakistan, as a 
longstanding ally of the United States, is committed to 
cooperating with the United States on terrorism. Its record 
shows that.
    Sanctioning Pakistan would serve no purpose other than to 
isolate them and aggravate the social and economic and 
political challenges in the region.
    I also strongly believe that the Taliban support for 
terrorism and its harboring of Usama bin Laden must be 
condemned in the strongest possible terms.
    We must also respond to the threat, and I believe that is 
where Pakistan plays a very critical role. We must remember 
that it is not in Pakistan's interest to have the Taliban on 
its border. It is also not in Pakistan's interest to have 
terrorist groups operating within its borders, and it is 
clearly not in India's interest to have Pakistan isolated, 
thereby producing a greater threat to peace and stability in 
South Asia.
    While it is undeniable that some terrorist groups operate 
in Pakistan, Pakistanis themselves are often the victim of 
terrorism.
    Moreover, Pakistan has been cooperating with the 
international community and the United States in 
counterterrorism efforts. In 1995, Pakistan turned over Ramzi 
Yousef, involved in the World Trade Center bombing, to the 
United States. In 1997, Pakistan helped apprehend Miur Amal 
Kanzi, who shot several people outside the CIA headquarters, 
and in 1998 and 1998, Pakistan handed over two suspects 
involved in the bombing of our embassies in Africa.
    I know from my talks with General Musharraf when I visited 
Pakistan and India in April that he is committed to dealing 
with the Taliban. He has met with one leader of the Taliban and 
is prepared to meet with others in Afghanistan.
    Throughout my trip I gained a new appreciation of the 
unique challenges facing the region. I also came away more 
convinced than ever that the United States must play a 
proactive role in helping to meet those challenges. There are 
serious challenges and threats which exist in Pakistan, but I 
also know that General Musharraf and General Aziz in Pakistan 
are well aware of what needs to be done.
    Pakistan has a responsibility to address terrorism in South 
Asia, but I believe we do, as well. The United States bears 
special responsibility in South Asia. During the war in 
Afghanistan, the United States armed Pakistan's neighbors and 
militants. Then, in my view, we callously abandoned the region.
    The result of that neglect has been disturbing: the 
Taliban, taking control in Afghanistan; the critical economic 
conditions in India and Pakistan, not to mention the nuclear 
weapons development that has taken place.
    Now we have an obligation to do our part to help establish 
stability in South Asia, and it is in our interest to do so. 
The threat of nuclear conflict and terrorism in South Asia is 
very real. We must reduce this threat and halt the arms race in 
South Asia, but I believe that unless Kashmir is addressed, Mr. 
Chairman, no real progress can be made.
    If we turn our attention away from the region as we did 
after the war in Afghanistan, we risk further erosion, 
violence, and disillusionment.
    We are uniquely positioned as a longstanding ally of 
Pakistan and as an emerging friend of India to bring the 
parties together. Given the stake in South Asia, punitive 
economic sanctions are clearly counterproductive. Democracy 
will be strengthened not by economic sanctions, but by economic 
aid.
    Funds for cooperative counterterrorism efforts, economic 
development, civil society building, and respect for the rule 
of law are needed. The answer is not to further sanction 
Pakistan or India, but to open up possibilities for 
cooperation.
    I look forward to working with the Members of this 
Committee and the Administration as we respond to this serious 
issue and develop an approach to South Asia that recognizes our 
responsibilities in the region and strengthens our cooperation 
with our friends and allies.
    I thank you for your time.
    Chairman Gilman. Thank you, Mr. Bonior.
    I am going to ask our Members to please be brief so that we 
can get on with the hearing.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I want to fully associate 
myself with the statements made previously by the gentleman 
from Michigan. I think the statement was cogent, precise, and 
right to the point.
    It is really a sad commentary, at least in my experience 
serving as a Member of this Committee, how we have applied such 
a double standard toward our relationship with Pakistan.
    I think this country has been a friend of ours, through 
thick or thin, and it seems that we have been kicking this 
country. Every time we always need a whipping boy, we seem to 
always have Pakistan, which is where we always do this. I thank 
the gentleman from Michigan for the statement to that effect. 
We should not limit whatever seems to be the support for 
friends who support the issues affecting India, but we also 
have to be mindful of the fact that Pakistan is just as much a 
friend of ours as is India, and I want to commend the gentleman 
from Michigan for that statement.
    Chairman Gilman. Thank you, Mr. Faleomavaega.
     Mr. Royce.
    Mr. Royce. Yes, Mr. Chairman, I would like to thank you for 
calling this hearing.
    As my colleague from Southern California, Mr. Rohrabacher, 
who I know has worked with you in the past and myself on his 
request for documentation, I share his frustration with the 
Administration's lack of cooperation in providing this 
documentation.
    Let me also say that I think that there has been a lack of 
purpose on the mayhem and anarchy coming out of Afghanistan. 
For many years now, we have held hearings to try to get the 
Administration to focus on the lack of policy, the lack of a 
strategy to try to bring resolution to what has happened there 
in Afghanistan.
    It seems to me that we are not dealing with the terror that 
is coming out of the region, given the fact that there has been 
a great call for a policy to try to do something about 
resolving the underlying problems that have given rise now to 
Afghanistan offering Usama bin Laden and others a place to do 
business, a place to prepare for the next round of terrorist 
activity.
    But this is a result of a lack of focus in our foreign 
policy in South Asia, and I hope that we can muster some 
attention and resolve in the future to develop a strategy to 
deal with Afghanistan.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Royce.
    I am going to have to ask unanimous consent that the 
statements by Congressman Peter King, Congressman Joseph Pitts, 
and Congressman Jim Saxton, in charge of the special oversight 
panel on terrorism of the Armed Services Committee, be included 
at this point in the record.
    [The prepared statements of Representatives King, Pitts, 
and Saxton appear in the appendix.]
    Chairman Gilman. Without further delay we will proceed with 
the witnesses. Our first witness today is the Honorable----
    Ms. McKinney. Mr. Chairman.
    Chairman Gilman. Ms. McKinney.
    Ms. McKinney. I would like to make an opening statement.
    Chairman Gilman. Please make it brief so that we can get on 
with our witnesses.
    Ms. McKinney. Thank you, Mr. Chairman.
    I appreciate any attempt to understand and thwart the 
presence of terrorism anywhere it appears in the world. But I 
hope this hearing provides the critical analysis that is much 
required.
    Last October I wanted to take a family who are my 
constituents to the White House to observe the arrival ceremony 
of the then leader of Italy. Because I have had such a 
miserable experience with White House security, I phoned ahead 
of time and told them what gate I was arriving at and, of 
course, reporting the requirement of name, Social Security 
number, etc., for myself and informed the White House that we 
would be arriving in separate cars. We were told fine and 
everything would be OK.
    I was driven to the White House by a young, 20-year-old 
white staffer of mine, and my guests were driven in a separate 
car by another staffer of mine, a young woman of color. Before 
I could get into the White House, I was insulted at the White 
House gates because the Secret Service representatives mistook 
my young black staffer for the Congresswoman of 6 years and 
asked me to prove my identity. After getting inside the White 
House, I was challenged at every checkpoint by the Secret 
Service yet again.
    That was nothing compared to the experience of my guests 
who had been invited by me and who were being escorted by my 
staffer. They had been vetted by the Secret Service and by 
White House protocol, but when they showed up, I guess all of 
the Secret Service anti-profiling lessons just flew out the 
window as they had with me earlier. The family consisted of a 
16-year-old child in her silk Pakistani cultural dress and her 
father, whose hair is beautiful, thick, black, and curly. He 
also sports a beard.
    And so despite all of the correct procedure of 
communicating with White House protocol, despite the added 
precaution of calling the White House to let them know the 
specific gate that we would be arriving at, none of the 
precaution and preparation on our part worked. I almost did not 
get inside, and unfortunately my guests did not get inside.
    I have to admit that I was angry. I was angry that my 
guests were denied admission for an event that their 
Congresswoman had invited them to. I was angry that they had 
been ordered by Secret Service to get out of the car being 
driven by my staff person of color who had never ever been 
treated before in such a manner.
    They were dog sniffed at the White House gates as if they 
were common criminals, and then they were never admitted to the 
event to which they had been invited, and I was tired. I was 
tired of being humiliated every time I tried to exercise my 
very existence as a Congresswoman, tired of people who looked 
like me and who think like me being persecuted just because we 
exist.
    I have to admit that I shed a tear on that day for the 
humiliation of my constituents and of myself. But the 16-year-
old girl put her arms around me, and she said, ``That's OK. I'm 
used to it.''
    After much publicity, the First Lady graciously invited the 
entire family back and gave them a personal apology.
    Now, I am sure you are wondering what does this have to do 
with the subject at hand. I think it has everything to do with 
the subject matter of today.
    Unintended consequences of our own policies and hasty 
disengagement from those consequences. It is far easier to 
blame the victim than to solve the problem.
    A few months after my White House experience with my 
guests, the country awoke to news that the Secret Service was 
being sued by a few courageous black Secret Service agents who 
had the guts to say that something was rotten inside the Secret 
Service, and immediately it became clear how that grotesque 
mistreatment of me and my guests on that day flowed logically 
from the systemic mistreatment of minorities within the very 
organization itself and, indeed, our American community at 
large.
    Mr. Chairman, I hope that today this Congress is not going 
to do to Pakistan what the Secret Service did to my Pakistani 
American constituents. We need a comprehensive approach to the 
problem of terrorism, and I will support that. But we also need 
to be balanced, and we need to get to the root problem and not 
deal with just the symptoms.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. McKinney.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    This hearing on global terrorism addresses a subject of 
great concern not only to the people of this nation, but to 
people from nations all over the world. We have been the 
unfortunate witnesses of numerous terrorist attacks all over 
the world that have destroyed or altered the lives of 
individuals on nearly every continent.
    Whether it is in embassy bombings in Africa, government and 
commercial office buildings in Oklahoma and New York, car bombs 
in Ireland, mosque shootings and school bus bombings in Israel, 
kidnappings in South America, or plane hijackings in Asia, 
terrorism is a misguided and hateful method of addressing 
discontent with governments and other groups by targeting 
random, innocent people.
    It is essential that the United States and all nations of 
good conscience work together on the best methods of combating 
global terrorism.
    The U.S. Government, beginning with this Congress, has a 
special responsibility as the world's only super power to set 
an example of even handedness and just dealings when it comes 
to fighting terrorism. Too often this nation's government and 
its peoples have chosen to unfairly target ethnic, racial, and 
religious groups, domestically or overseas, who are different 
from the majority of Americans when trying to address a social 
ill or increase our national security.
    Throughout American history, these scapegoat groups have 
included Native Americans, African Americans, Italian and 
Japanese Americans, Jews, and most recently Arabs and Muslims. 
Policies based on the misguided targeting of ethnic groups when 
trying to address our domestic or national security has led to 
unconstitutional practices, such as indicated by my colleague 
Cynthia McKinney, racial profiling and the use of secret 
evidence.
    Our focus on terrorism in Southeast Asia should not be for 
the purpose of condemning or casting aspersions on a particular 
nation or people because their predominant religion or form of 
government is different from ours. Congress must additionally 
resist playing favorites between one nation over another, no 
matter what political forces pressure us to do so.
    In one of the background documents prepared by the 
Committee, Afghanistan and Pakistan were the two countries 
singled out as concerns in a region where incidents of 
government and organizational terrorism exist in many nations. 
Both nations have experienced major government upheavals and 
instability in their recent past, and certainly the legitimacy 
of the Afghan Government is in question.
    However, the government of Pakistan has demonstrated 
continued cooperation with the United States in combating 
terrorism despite certain internal pressures that question U.S. 
cooperation. Pakistan has arrested and extradited suspects in 
the murder of CIA agents and in the bombing of the World Trade 
Center in New York and our embassies in Africa.
    According to the U.S. Government, Pakistan is considered a 
friendly nation to the United States and has done a good job in 
providing security for our embassy and has, overall, been an 
ally of the United States in our counter-terrorist efforts.
    While there may be room for improvement, and certainly 
there is, in Pakistan's counterterrorism efforts, that 
improvement will come from a continued close relationship with 
the United States, where information and methodologies are 
shared for the benefit of both nations and the rest of the 
world.
    Undue criticism will only drive a wedge between us and 
benefit no one. The United States has a responsibility to be a 
facilitator in Southeast Asia to additionally help reduce 
terrorist acts between nations, just as we have been doing in 
the Middle East.
    In closing, let me just remind my colleagues that this 
hearing focuses on Southeast Asian-centered terrorism. 
Terrorist acts are a worldwide issue targeted toward people of 
all backgrounds by terrorists of all backgrounds.
    The recent report of the National Commission on Terrorism 
noted that today's terrorists are less dependent on state 
sponsorship and are, instead, forming loose, transnational 
affiliations.
    So I would just say, let's make sure that we are fair and 
even handed as we look at this issue and not take sides, 
because we cannot help if it appears as though we are on one 
side as opposed to the other. If we are going to be the 
facilitators, we need to have an even hand so that we can make 
sure that we can continue communication with all nations, and 
then we can combat this terrorism that is going on around the 
world.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Meeks.
    We will be continuing our testimony right through the vote 
on the journal. I have asked one of our Members to go over and 
return quickly.
    We will now call our first witness today, the Honorable 
Michael Sheehan, Ambassador-at-Large and Coordinator for 
Counterterrorism at the Department of State, where he has 
primary responsibility for developing, coordinating, and 
implementing U.S. counterterrorism policy.
    Ambassador Sheehan was confirmed by the Senate in August 
1999. His office chairs the Working Group for Counter-
Terrorism, which develops and coordinates policy, manages the 
State Department Task Force that responds to international 
incidents, and coordinates government efforts to improve 
cooperation with foreign governments, including the 
Administration of the anti-terrorism training assistance 
program.
    Ambassador Sheehan's background includes serving as Deputy 
Assistant Secretary in the State Department's Bureau of 
International Organization Affairs and as a Special Advisor to 
the representative of the Secretary General of the U.S. mission 
to the United Nations.
    Ambassador Sheehan retired as a lieutenant colonel in the 
United States Army after a career that included two tours on 
the National Security Council's staff. He is a graduate of the 
United States Military Academy at West Point, adjoining my 
congressional district.
    Ambassador Sheehan.

 STATEMENT OF THE HONORABLE MICHAEL A. SHEEHAN, AMBASSADOR-AT-
 LARGE, COORDINATOR FOR COUNTER-TERRORISM, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Sheehan. Thank you, Mr. Chairman and Members of 
the Committee, and thank you for this opportunity to address 
the shift of the locus of terrorism to South Asia.
    In our annual report to Congress this year, Patterns of 
Global Terrorism, 1999, we describe the shift in some detail. 
This was one of the two trends we identified as the most 
important recent developments in terrorism, the other being the 
shift from well organized and hierarchical groups supported by 
state sponsors of terrorism to the loosely organized 
international networks of terrorism that are often able to 
raise funds and sustain themselves by smuggling narcotics 
trafficking, kidnapping, extortion and other types of fund 
raising.
    Mr. Chairman, I just returned from the Philippines and 
before that Colombia, where this new type of terrorism is 
manifesting itself in a very dangerous way. It was very 
troubling for American interests in both of those countries of 
longstanding importance to the United States.
    I purposely addressed the trends that I alluded to earlier 
on the very first page of my introduction in this report to 
show the importance of these trends, and the increased 
willingness and ability of terrorists to seek refuge in South 
Asia are disturbing developments. They require us to refocus 
our diplomatic energies and policy tools as well.
    I have a fairly lengthy written statement that I will 
submit to the record, Mr. Chairman, and I will briefly cover 
some of the main points of that statement in my oral remarks 
this morning.
    Chairman Gilman. So ordered without objection.
    Ambassador Sheehan. Mr. Chairman, I will talk about three 
areas this morning in my oral remarks. No. 1 is why South Asia. 
What is important about South Asia?
    Second, what we are doing right now.
    And, third, what we will do next to deal with this evolving 
threat.
    Why has South Asia become the locus for terrorism around 
the world? Primarily the reason is Afghanistan, and the 
complete collapse of the state of Afghanistan starting in 1979 
with the invasion of the Soviet army. The long and ongoing 
conflict in Afghanistan attracted fighters from around the 
world, many of them at our bequest, in the mid-1980's.
    The proximity of Afghanistan to other conflicts, such as 
Kashmir and others in Central Asia, also contributes to making 
it a hub of this type of activity. In addition, the welcome mat 
provided by the Taliban to these fighters that are often 
supporting the Taliban's fight against the Northern Alliance 
often also find refuge in Afghanistan for other agendas that 
they have in different parts of the world.
    In Afghanistan, the situation is exacerbated by an 
explosion of narcotics trafficking and finances involved with 
that, a virtual arms bazaar throughout the country, and 
religious extremism that is fostered in many of the Madrases in 
Afghanistan and nearby Pakistan.
    Afghanistan came to the forefront of attention of the 
United States, although we had known about it. The increasing 
support for terrorism in the region came to the forefront after 
the bombings of our embassy in East Africa in August 1988. 
Also, last year, as Congressman Gilman mentioned in his opening 
remarks, we had a good year, only five deaths of Americans from 
international terrorism, the lowest in many, many years, three 
in Colombia and two in Central Africa.
    We did have continuing threats coming from South Asia, 
including the terrorist threat around the millennial period 
that manifested itself in Jordan, that wound its way back into 
Afghanistan; the hijacking of an aircraft from India that wound 
up on a runway in Kandahar; and various other threats that 
manifest themselves around the globe and often have tentacles 
leading back to the leadership in the camps in Afghanistan.
    Why is Afghanistan important? Why is South Asia? Let me 
mention three reasons.
    First, the most immediate are the threats that directly 
affect us around the world today, and as many of you know, 
recently the State Department has put out an additional 
warning, a public announcement of warnings as terrorist threats 
have increased around the world recently, many of those, again, 
winding their way back to Afghanistan.
    Second, the terrorism that emanates out of this part of the 
world threatens regional stability. As mentioned by some of the 
Members here in Pakistan itself, Kashmir conflict, other 
conflicts in Central Asia, reaching into the Caucasus and the 
Middle East and beyond.
    And finally, over the longer term, as the Coordinator for 
Counterterrorism, I am concerned about the caldron of terrorism 
that is bubbling out of Afghanistan and will continue to 
threaten American interests in the longer term.
     What are we doing to confront this threat? We are moving 
on a lot of different fronts. I will, again, break those into 
three areas.
    First, on the immediate front, we are working 24 hours a 
day times 7 days a week to disrupt any cells that threaten 
Americans around the world. Working with our liaisons with law 
enforcement and intelligence organizations around the world, we 
are actively involved in disrupting any activities that 
threaten American interests. I can assure you, Mr. Chairman, 
this is ongoing continuously, both the threat our count-
threats.
    Second, we are working very actively to isolate and contain 
this threat with pressure on the sanctuary of these groups.
    Over the longer term, third, is what I refer to in the 
report and often in many of my remarks. We want to drain the 
swamp, which is a term I use to deny sanctuary to terrorist 
organizations that need space in order to organize its 
leadership, plan its activities, train its fighters, assemble 
its equipment and arms in order to conduct attacks. And the 
primary swamp that I am concerned about right now, Mr. 
Chairman, is in Afghanistan, although there are many others 
around the world as well.
    Let me say a word about resources while I have the 
opportunity. I thank this Committee particularly, many of the 
Members of this Committee and the staff, for the support they 
have given my office over the years. I would like to emphasize 
we have two important funding requirements in front of the 
Congress right now, a funding for the anti-terrorism assistance 
program and for a center for anti-terrorism security training, 
CAST, that are being requested by the Administration.
    Right now, in particular, the funding for the CAST seems to 
be in great jeopardy. This center will help us train not only 
our diplomatic security personnel, but primarily, it will train 
those law enforcement and security people that work with us on 
a day-to-day basis around the world to disrupt those cells I 
referred to earlier.
    We need, in the 21st century, a 21st century terrorist 
training facility in order to confront the 21st century 
terrorist threats. I appreciate your support, Mr. Chairman, and 
others on the Committee as we work forward on this requirement.
    In conclusion, I would like to remind that our efforts to 
combat terrorism in South Asia and around the world start with 
our support from Capitol Hill and often from this Committee. 
Carefully calibrated counterterrorism legislation, such as 
those regarding state sponsorship, the foreign terrorist 
organizations, and others are very key to our efforts.
    Sufficient resources and the public discourse such as the 
hearings are also key. Your support coupled with the force of 
our sustained diplomatic and political efforts will help us 
drain the swamp in Afghanistan and in other states that are not 
mustering the political will to confront terrorists.
    We have had a great deal of success in the past 20 years, 
Mr. Chairman. This success can be attributed to our commitment 
to stay the course in a tough counterterrorism policy and to 
rally international support. Applying diplomatic pressure, 
raising political will and levying sanctions, these actions 
have made many corners of the world intolerable for terrorists.
    We must continue to stay the course while adjusting to new 
geographic threats and a changing face of terrorism. We must 
maintain strong political will within the Administration and in 
the Congress to be tough on terrorism and push our allies to do 
the same.
    Mr. Chairman, thank you for the opportunity to appear 
before your Committee today. I look forward to answering any of 
your questions or Members of the Committee.
    Thank you.
    [The prepared statement of Ambassador Sheehan appears in 
the appendix.]
    Chairman Gilman. Thank you very much, Mr. Sheehan.
    We have with us Alan Eastham, who has a long record of 
service in the State Department and in the service of his 
country. He is now a Special Assistant and Under Secretary for 
Political Affairs. He was involved with the Near East and South 
East in his responsibilities for a number of years, including 
Sri Lanka and as the India Desk Officer.
    He has been a staff officer in the Office of Combating 
Terrorism, and he has had a wide range of experience overseas, 
in South Asia.
    You may proceed, Mr. Eastham.

STATEMENT OF ALAN W. EASTHAM, JR., DEPUTY ASSISTANT SECRETARY, 
    BUREAU OF SOUTH ASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Eastham. Thank you very much, Mr. Chairman, to you and 
the Members of the Committee. I appreciate the opportunity to 
come here today to talk about an issue of great importance to 
the United States and its interests in South Asia.
    Let me also express the regrets of Assistant Secretary Karl 
Inderfurth, who was originally invited to attend this hearing. 
He is presently on his way back from a visit to China where he 
consulted on South Asian issues with the Chinese Government, 
coincidentally on the same day as Ambassador Holbrooke was 
there to talk about other issues relating to South Asia and 
other parts of the world.
    I would like to begin by talking about some of the events, 
actions we have taken since the last time we had an opportunity 
to testify before Congress regarding terrorism in South Asia. I 
would remind the Committee that in October 1999, the Security 
Council of the United Nations unanimously passed U.N. 
Resolution 1267, which calls on the Taliban to hand over Usama 
bin Laden to a country where he can be brought to justice.
    Since October of last year, we have been diligently 
monitoring the application of the sanctions which were applied 
in that resolution, which include effects on financial 
transactions affecting the Taliban and a ban on flights by the 
Afghan National Airline, which is controlled by the Taliban, 
outside Afghanistan.
    With Russia and other countries we have been talking in 
recent weeks about the situation in Afghanistan, including 
terrorism. With India this year we have established a joint 
working group on counterterrorism which first met in February 
of this year.
     India has also agreed to accept and work closely with a 
legal attache at the U.S. embassy in New Delhi, and a country 
which has not yet been mentioned in this morning's proceedings. 
With Sri Lanka, a friendly country which has been fighting an 
insurgent group that employs the weapon of terrorism, we have 
enjoyed excellent cooperation in a number of areas related to 
counterterrorism.
    I have a lengthy statement, Mr. Chairman, which I will at 
this point summarize if that would be agreeable to you.
    Chairman Gilman. With unanimous consent, so ordered.
    Mr. Eastham. Thank you.
    Ambassador Sheehan and his colleagues have rightly stressed 
the shifting locus of international terrorism to South Asia. 
Though several South Asian countries face terrorist threats of 
one kind or another, terrorists in Afghanistan pose the 
greatest threat to U.S. interests, lives, and property in the 
region, and it will be that country which is largely the 
subject of my testimony today.
    I would also like to take this opportunity to remind the 
Committee of a number of tragic incidents which have occurred 
over the past several years in the region for which I bear some 
responsibility.
    Beginning in March 1995, members of the Consulate General 
staff in Karachi were murdered in transit between their homes 
and the office. That case remains under active investigation to 
this day.
    A similar incident occurred in late 1997 in which four 
American businessmen were shot to death, and that case also is 
under investigation.
    In Kashmir in July 1995, several foreign tourists were 
abducted while hiking in the mountains of that region. I have 
to say that we have devoted a great deal of time and attention 
to the case of Mr. Donald Hutchings, the American citizen who 
is still missing from the incident, and with whose family we 
are still in touch. We are still very actively pursuing that 
case.
    Ambassador Sheehan has mentioned the hijacking of the 
Indian Airlines flight last December, which had a profound 
effect and some relation to the earlier kidnapping in Kashmir 
by the fact that one of the Indian prisoners who was released 
as a result of the demands of the hijackers was also the 
subject of demands of the kidnappers of the Americans from 
1995.
    At present the hijackers were last seen at the airport in 
Kandahar, Afghanistan. The gentleman who was released from 
Indian custody is presently in Pakistan. There have been no 
arrests in that case.
    And I would also draw your attention to November 12, 1999, 
when the U.S. Embassy in Islamabad, Pakistan was the subject of 
a rocket attack from parked vehicles.
    The reason I bring these cases up, Mr. Chairman, is to 
remind you that there is still a clear and present threat from 
terrorism in the South Asia region. It affects U.S. interests. 
It affects U.S. personnel. It affects U.S. property, and it is 
certainly worthy of this Committee's attention and the 
attention of the Congress.
    There have been many other such incidents against Indian 
interests in Kashmir, bombings in cities in India and Pakistan 
and attacks, as I mentioned, against the government of Sri 
Lanka by the Liberation Tigers of Tamil Elam, which we have 
designated as a foreign terrorist organization.
    These include an assassination attempt in December against 
Sri Lankan President Kumaratunga, which injured her and killed 
several other people. It is clear that the trend is toward more 
and more deadly attacks against targets in South Asia.
    We have strongly condemned these attacks in the region, as 
we do everywhere in the world. It is not acceptable and, 
indeed, reprehensible for individuals and groups to adopt this 
tactic as a means of achieving political goals.
    With respect to Kashmir, Mr. Chairman, the President, when 
he visited South Asia in March, set out a number of principles 
which call for restraint, rejection of violence, respect for 
the line of control in Kashmir, and for India and Pakistan to 
renew their dialogue. We believe those principles are eminently 
practical and that they would, if pursued actively by the 
parties in South Asia, lead to a reduction in U.S. violence 
and, indeed, considerable U.S. support in that regard.
    It is Afghanistan, however, where the shifting locus of 
terrorism is most pronounced. I have in my written statement 
for the record addressed the historical factors in some detail. 
I know that Mr. Rohrabacher has also addressed more recent 
history.
    I would just note, however, the immense suffering of the 
Afghan people over the last 20 years since the invasion by the 
Soviet army of that country in December 1979. One major factor 
to which Ambassador Sheehan has already alluded is the fact 
that over the past 20 years an entire generation of young men 
has grown up who know nothing but war.
    There is also an entire generation of young women who have 
come into mature life during that period who have known nothing 
but suffering, and it is toward peace in Afghanistan that our 
efforts are directed.
    Sadly for the Afghans, the brutality and ruthlessness that 
they learned in fighting the Soviets has carried over into 
fighting other Afghans as the Afghan civil war continued for 
the past 10 years.
    The breakdown of central authority in Afghanistan, the all 
too easy access to the tools of terrorism in the form of 
weapons and explosives, and the rise of ideologies in which 
violence against innocents is considered a legitimate tool, 
have contributed to an increase in international terrorism 
emanating from that region.
    The rise of the Taliban has also been a contributing 
factor. The Taliban had no previous experience when they took 
power in Afghanistan in administering a government. They had 
little experience with the outside world. They had a strong 
ideological motivation based in Islam and in the Pushtu-based 
society from which they derive, and they had a strong need for 
support from any quarter.
    This led them to depend on extremely questionable outside 
sources of support, including those who advocate violence from 
outside Afghanistan, and increasingly the financial benefits of 
the narcotics trade.
    They have since demonstrated that they support and 
sympathize with goals from outside the region, which include 
the removal of U.S. forces from the region of the Gulf, and 
they have taken no significant steps to curtail the pursuit of 
terrorist means to achieve goals emanating from Afghanistan.
    Ambassador Sheehan has outlined the steps we are taking to 
defend ourselves and to push back international terrorism. We 
have repeatedly demonstrated this over the past several years.
    One factor I would also like to note, Mr. Chairman, is the 
need for governments to realize that support for their groups 
will backfire. These groups always, and I stress always, pose a 
threat to the stability, security, and other real national 
interests of their hosts and patrons, no matter the short term 
political advantage which might be seen from activities against 
national adversaries.
    The Taliban in Afghanistan have yet to learn this lesson.
    At the same time that we have been pressing the Taliban to 
take action to prevent the use of their territory for 
international terrorism, we have been careful to continue 
contributing to humanitarian programs in Afghanistan. We have 
provided support for schools. We are the major donor of food 
assistance to Afghans. We provide medical supplies and most 
recently have just announced a new $4 million donation for 
drought relief in Afghanistan, a country which is suffering 
from a significant drought which may lead to significant 
suffering and starvation in that country.
    We have had, we think, a positive impact on the lives of 
ordinary Afghans because it is not their fault, and they should 
not suffer because the people who control that country support 
international terrorism.
    With respect to Pakistan, several members have noted the 
close relationship we have had over the years with that 
country. We have also worked together against terrorism. 
Pakistan has offered its cooperation, as has been noted 
previously during this hearing.
    Pakistan wants to see peace and stability in Afghanistan. 
After all, Afghanistan is next door to Pakistan. It has 
considerable influence in Afghanistan and with the Taliban.
    Pakistan has made known its view that the presence of Usama 
bin Laden in Afghanistan is an obstacle to stability, and 
Pakistan makes the point that it does not control the Taliban.
    We will continue and have urged Pakistan to use every 
aspect of its influence with the Taliban to convince them to 
deal with this issue in the manner called for in U.N. Security 
Council Resolution 1267.
    We are also very concerned at the problem of terrorism in 
Pakistan. The country has taken some recent, very welcome steps 
to address this problem and has arrested a number of persons 
wanted for terrorist crimes, as has already been noted, and has 
announced it's taking a close look at foreigners living in 
Pakistan to insure they're there for lawful and peaceful 
purposes.
    I would note that the Pakistan press today, Mr. Chairman, 
reports that a senior delegation from the Pakistan Interior 
Ministry will be going to Afghanistan later this month to talk 
to the Taliban authorities about matters pertaining to 
terrorism and narcotics, and we welcome that as a manifestation 
of Pakistan's intent to deal with this problem as it affects 
that country.
    We are also concerned, as I noted, because both Pakistani 
and U.S. interests have been attacked in that country. Some 
terrorists and their supporters certainly continue to live in 
and move through Pakistan. This includes the organization 
formally known as Harakat-ul-Ansar, which was designated as a 
foreign terrorist organization by the United States.
    We will continue to urge Pakistan to take action against 
such groups and to take all steps necessary to see that it does 
not become a safe haven or a safe transit point.
    I hope, Mr. Chairman, we can take as the example the 
counter-narcotics cooperation we have enjoyed with Pakistan for 
the past 20 years. We have come to the point where it is 
possible to see the end of the road for opium production in 
Pakistan. We have had exemplary cooperation with that country 
in this area, and we hope that we can take that as a model for 
cooperation on counterterrorism.
    I thank you very much for the opportunity. I will be happy 
to take your questions, Mr. Chairman.
    [The prepared statement of Mr. Eastham appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Eastham and Secretary 
Sheehan.
    Let me first address Ambassador-at-Large Michael Sheehan. 
At your recent Central Asia terrorism meeting here in 
Washington, sponsored by the State Department, several of the 
government representatives from nations in the region impacted 
by radical Islamic terrorism talked about terrorist camps 
within Pakistan, as well as Afghanistan.
    Are you aware of any terrorist training camps inside of 
Pakistan?
    Ambassador Sheehan. Mr. Chairman, our primary concern 
regarding camps is in Afghanistan, and I talked to those 
members of all five countries from Central Asia that came to 
our conference. We had very productive discussions with them. 
They were all concerned primarily about Afghanistan and the 
camps there.
    The situation in Pakistan is complicated. I may need a 
closed session to go into some more details on some of the 
aspects of it. In our annual report, we do mention the movement 
of terrorist groups through Pakistan. Primarily my concern is 
the camps are in Afghanistan. Often in order to leave 
Afghanistan, many terrorists move through Pakistan, 
particularly through Peshawar and out through the region, but 
they also move north through the Central Asian states as well.
    But I think any other details regarding some activity of 
those camps we might do in closed session; but I would 
underscore to you, Mr. Chairman, the major source of camps for 
the training of those types of groups reside in Afghanistan.
    Chairman Gilman. But my question is: specifically, are 
there any training camps in Pakistan?
    Ambassador Sheehan. Mr. Chairman, I reviewed that question 
carefully with my analysts before coming up here. I think I 
need, based on their advice, to talk to you about that in a 
closed session.
    Chairman Gilman. A number of the Central Asian countries 
indicated that there was information of terrorist camps in 
Pakistan. Are they accurate? Are those statements accurate?
    Ambassador Sheehan. Again, Mr. Chairman, I think I would 
have to discuss that in a closed session.
    Chairman Gilman. All right. With regard to both panelists, 
what is your candid view of the level of cooperation that we've 
received from Pakistan in recent years in the fight against 
international terrorism in the region?
    Ambassador Sheehan. Mr. Chairman, the Pakistani Government 
has cooperated with the U.S. Government in counter-terrorist 
actions over the past many years, and it continues to do so 
actively as we speak right now regarding helping us deal with 
specific threats to our security, both those threats that 
affect us within Pakistan, our embassy, and other points of 
interest, but also regarding individuals that may be within 
Pakistan or transiting through Pakistan.
    So in that regard, they get fairly good grades on 
cooperation on specific cases. The other side of the ledger, I 
must say, is their policies in Afghanistan and to a lesser 
degree in Kashmir that contribute to the problem of terrorism 
that emanates out of Afghanistan. So it's a mixed record. They 
cooperate, but they also have policies that are very troubling 
to us, and we have had very frank discussions with them on 
those policies and urge them to address those issues.
    We remain closely engaged at a very high level with the 
Pakistanis on these issues, and my particular concern is their 
relationship to the Taliban and how that affects our interest 
in counterterrorism.
    Chairman Gilman. Thank you, Ambassador Sheehan.
    Secretary Eastham, did you want to comment on that?
    Mr. Eastham. I would just add that I would second 
Ambassador Sheehan's remark regarding cooperation on specific 
cases. The threats to U.S. installations----
    Chairman Gilman. Would you put the mic a little closer to 
you?
    Mr. Eastham. Sure. The threats to U.S. installations, 
facilities, personnel, and interests in Pakistan receive the 
highest level of cooperation from the Pakistan Government. As 
Ambassador Sheehan has noted, the question of the Taliban and 
on the pursuit of longer term interests with respect to 
Afghanistan has an effect on Pakistani attitudes with respect 
to that country.
    It would not be inappropriate to mention that policies 
toward Kashmir also have an effect, but I think that I would 
endorse Ambassador Sheehan's remarks.
    Chairman Gilman. To both panelists, why has the State 
Department failed in not designating the Pakistani based LET 
group [LASHKAR-e TAYYABA], a foreign terrorist organization, 
especially since the legal threshold is not very high?
    Ambassador Sheehan. Mr. Chairman, every 2 years, actually 
by legislation, the Congress requires us to review foreign 
terrorist organizations. However, this year I have also 
decided, within the limited resources in my office, to review 
other groups during the year because we can designate them as 
terrorist organizations at any time during the year.
    We are currently reviewing the LET, the LASHKAR-e TAYYABA, 
actively for its designation as a foreign terrorist 
organization. The work has been done at the analytical level 
within the State Department. It is a very complicated and legal 
process, the designation of a foreign terrorist organization, 
and right now we are working with the Department of Justice and 
Department of Treasury to complete that legal analysis.
    We have been challenged twice in the past on our 
designation of FTOs in the U.S. court system, and we have won 
both times. So it is incumbent on us to be very well prepared 
before we designate a group for terrorism, and right now the 
LET or the LASHKAR-e TAYYABA, I think you are referring to, is 
under close review right now, and I expect, Mr. Chairman, to 
have an answer as to whether they will be designated within the 
next weeks, perhaps months, depending on that legal process.
    Chairman Gilman. We would hope you would keep this 
Committee informed of your progress in that direction.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I think one of the things that we want to make sure people 
see clearly is that our concerns here are isolated to terrorist 
activities and threats directed at the United States and our 
allies, and that what we want to make sure does not happen is 
that we do not want to create the appearance in any way that 
there is a conflict here between the West and Islam or, you 
know, people of the Muslim faith.
    These are isolated incidents, and certainly most of Islam, 
like most religions, focus on peaceful relations with their 
neighbors. So I just want to make sure that the fact that we 
happen to focus on this region today does not leave people with 
any other impression.
    My first question is that I am getting the sense, more and 
more, that it is hard to figure out what comes first, but there 
is an economic aspect to all of this. You look at Colombia, and 
you find the drug lords and the terrorists there. You go to 
Lebanon and you find in the Bekaa Valley they are growing 
poppies. You come to this area, and again, the drug trade, you 
can look at it and see that the drug trade is an easy way to 
make lots of money.
    The relationship here seems to be very tightly woven. So 
this is my first question. How much of the activity here is 
profit motivated, trying to make money off drugs with a little 
bit of fervor on the side for your terrorist organization, and 
how much is terrorism with its own goals associated with that?
    The second question is: What are the countries that have 
relationships and provide assistance to the Taliban and the 
government in Afghanistan?
    Ambassador Sheehan. I am sorry. What was the second 
question, again?
    Mr. Gejdenson. The second question is: Which countries have 
relations with the government in Afghanistan and provide 
assistance, military, other than humanitarian, of course?
    Ambassador Sheehan. All right, Mr. Gejdenson. On the first 
question regarding your question about terrorism and its 
economic roots, etc., you are absolutely right that most of the 
terrorism that I see, as the Coordinator when I look around the 
world, emanates from places where there is a breakdown of state 
control. The old days of state sponsorship have really waned 
considerably, although there are a few that I have great 
concern with, but those are less of my immediate concern.
    When you have a complete breakdown of lawlessness in a 
place like Afghanistan, where you have the confluence of 
narcotics trafficking, arms smuggling, other types of illicit 
activity, coupled with these other terrorist groups, you find 
this phenomenon at a high rate.
    In Afghanistan there are both types of terrorists, those 
that seem to be just in the profit business and others that are 
politically motivated. Some of them are just politically 
motivated, and those are some of the ones, frankly, that are 
more troubling.
    The ones that get caught up in narcotics trafficking and 
other elicit activities sort of lose interest in their 
terrorist goals. They're still of major concern, but not as 
threatening as the ones that are very focused on their 
political agenda. So there is a little bit of both in 
Afghanistan.
    Regarding your second question on support for the Taliban, 
the Taliban finds itself extraordinarily isolated around the 
world today. Initially they were recognized only by three 
governments: by Pakistan, Saudi Arabia, and the United Arab 
Emirates. The Saudis and the UAE both have an extraordinarily 
strange relationship with the Taliban right now, and I have 
discussed that issue with both of them at very senior levels.
    They have put a lot of pressure on the Taliban on a lot of 
issues regarding terrorism, narcotics traffic, and others, and 
have been cooperating with us on bringing pressure to bear on 
the Taliban.
    The other country is Pakistan. Its relationship with the 
Taliban is also longstanding and complicated, and I would not 
exactly describe it as very warm at this point. I will let Al 
Eastham respond to this in more detail, but I know that the 
Pakistani Government is engaging the Taliban right now 
regarding all of the issues that we are concerned about in 
trying to get them to turn around their policies. Whether those 
efforts will bear fruit remains to be seen, but those are the 
main countries with relations with the Taliban.
    Mr. Eastham. I would just add that, on your first question 
regarding the nexus between drugs and terrorism, the Taliban 
have an ambiguous position on this. They say that the drug 
trade is un-Islamic, but they seem to permit it to occur and, 
indeed, to tax it along the way as a source of revenue; and 
this is a dichotomy in their policy, which is a little bit 
difficult to deal with because the two policies are completely 
opposite.
    We have been doing a great deal to focus on the problem of 
interdicting narcotics flowing out of Afghanistan. We have been 
working with all of Afghanistan's neighbors in this direction 
and also with the U.N. drug control program.
    There is a dilemma in trying to suppress the narcotics 
traffic in Afghanistan. You have to provide assistance to the 
country to be able to do that, and that is very hard for us to 
do with the Taliban.
    Mr. Gejdenson. Under the present restrictions, are we able 
to do democracy building in, for instance, Pakistan with the 
present sanctions? The present leadership in Pakistan is 
arguing it is trying to establish democracy at the grassroots 
level. Can we participate in that or are we blocked from doing 
that with our sanctions?
    Ambassador Sheehan. We can, Mr. Gejdenson, and we do.
    Mr. Gejdenson. And if I could indulge my colleagues, one 
last thing. Are there any countries supplying weapons to the 
Taliban at this point?
    Ambassador Sheehan. I think I will have to go in closed 
session on that as well, Mr. Gejdenson. What I know about that 
is from classified sources. I will be glad to talk to you about 
it after this.
    Mr. Gejdenson. Thank you.
    You might check with Mr. Rohrabacher for any other 
information you need on Afghanistan. He seems to be very 
knowledgeable about the military situation there.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Rohrabacher.
    Mr. Rohrabacher. This is a joke. I mean, you have to go to 
closed session to tell us where the weapons are coming from?
    Well, how about let's make a choice. There is Pakistan or 
Pakistan or Pakistan. Where do you think the Taliban--right as 
we speak--are getting their weapons. I have not read any 
classified documents. Everybody in the region knows that 
Pakistan is involved with a massive supply of military weapons 
and has been since the very beginning of the Taliban.
    Let me just state for the record here before I get into my 
questions that I think there is a--and it is not just you, Mr. 
Ambassador, but it is this Administration and perhaps other 
Administrations as well. I do not believe that terrorism flows 
from a lack of state control. A breakdown of state control, and 
all of a sudden you have terrorism.
    That is not what causes terrorism. What causes terrorism is 
a lack of freedom and democracy, a lack of a means to solve 
one's problems through a democratic process.
    Afghanistan from the very beginning, when the Reagan 
Administration was involved with helping the Afghans fight the 
Russians, which were engaged in trying to put a totalitarian 
government there; because of Pakistan's insistence, a lion's 
share of our support went to a guy named Hek Makti Argulbadin, 
who had no democratic tendencies whatsoever.
    And since the Russians left, the United States has not been 
supporting any type of somewhat free, somewhat democratic 
alternatives in Afghanistan, and there are such alternatives, 
and those of us who have been involved know that.
    So there is no democracy or freedom in Afghanistan where 
people who are good and decent and courageous have a chance to 
cleanse their society of the drug dealers and the fanatics that 
torture and repress especially the women of Afghanistan. The 
men of Afghanistan are not fanatics like the Taliban either. 
They would like to have a different regime.
    Only the United States has given--and I again make this 
charge--the United States has been part and parcel to 
supporting the Taliban all along and still is, let me add. You 
do not have any type of democracy in Afghanistan. You have a 
military government in Pakistan now that is arming the Taliban 
to the teeth.
    And in Kashmir, what have you got? You have got an Indian 
Government that supposedly is democratic, steadfastly refusing 
to permit those people to have an election to solve the 
problems there democratically. You have got Christians; you 
have got Seeks throughout India and Pakistan and Jamou where 
the people's rights are being denied them. It is a breakdown of 
democracy on the subcontinent, not a breakdown in state control 
that is causing the violence that threatens the world right 
now.
    Let me note that 3 years ago I tried to arrange support, 
aid, humanitarian aid to a non-Taliban controlled section of 
Afghanistan, the Bamiyan area. Mr. Chairman, the State 
Department did everything they could to thwart these 
humanitarian medical supplies from going into Bamiyan.
    And we have heard today that we are very proud that we are 
still giving aid to Afghanistan. Let me note that aid has 
always gone to Taliban areas. So what message does that send 
the people of Afghanistan? We have been supporting the Taliban 
because all of our aid goes to the Taliban areas, and when 
people from the outside try to put aid into areas not 
controlled by the Taliban, they are thwarted by our own State 
Department.
    Let me just note that that same area, Bamiyan, where I 
tried to help those people who were opposed to the Taliban, 
Bamiyan now is the headquarters of Mr. bin Laden. Surprise, 
surprise.
    Everyone in this Committee has heard me time and again over 
the years say unless we did something Afghanistan was going to 
become a base for terrorism and drug dealing. Mr. Chairman, how 
many times did you hear me say that?
    This Administration either ignored that or are part of the 
problem rather than part of the solution. Again, I am sorry Mr. 
Inderfurth is not here to defend himself, but let me state for 
the record at a time when the Taliban were vulnerable, the top 
person in this Administration, Mr. Inderfurth, and Bill 
Richardson personally went to Afghanistan and convinced the 
anti-Taliban forces not to go on the offensive. Furthermore, 
they convinced all of the anti-Taliban forces and their 
supporters, to disarm and to cease their flow of support for 
the anti-Taliban forces.
    At that same moment, Pakistan initiated a major resupply 
effort, which eventually caused the defeat of almost all of the 
anti-Taliban forces in Afghanistan.
    Now, with a history like that, it is very hard, Mr. 
Ambassador, for me to sit here and listen to someone say our 
main goal is to drain the swamp--and the swamp is Afghanistan--
because the United States created that swamp in Afghanistan, 
and the United States policies have undercut those efforts to 
create a freer and more open society in Afghanistan which was 
consistent with the beliefs of the Afghan people.
    Mr. Gejdenson. Will the gentleman yield for one statement?
    Mr. Rohrabacher. I certainly will.
    Mr. Gejdenson. I was wondering. During the time that the 
Administration supported the Taliban and created this policy, 
who was President during those years?
    Mr. Rohrabacher. Well, there were several Presidents, and I 
would say that George Bush has to accept some of the blame, but 
I think the current Administration--no, the Taliban did not 
exist before that, Mr. Gejdenson.
    Mr. Gejdenson, one of the other myths is that the Taliban 
were part and parcel of the Mujahadin. The Taliban, as both of 
you know, were not part of the Mujahadin. The Taliban basically 
sat out the war and came on the scene afterward. Mu Omar was 
not a renowned commander in the Mujahadin.
    Chairman Gilman. Mr. Rohrabacher, did you want the 
witnesses to respond?
    Mr. Rohrabacher. Yes, one last note. Thank you, Mr. 
Chairman.
    The Muslims are the victims of terrorism just as much as 
anyone else. In fact, Muslims are suffering more than anyone 
else, and I agree with my colleagues that we have to be very 
careful. Mr. Gejdenson was absolutely right in making sure that 
as we look at this Taliban drug-related terrorism that is now 
affecting all of us, that we do not do something to send a 
message that this is something to do with the Islamic faith 
because it does not. They are victims as well.
    And if you have any comments, please feel free. Thank you 
for giving me 5 minutes.
    Chairman Gilman. Did the panelists want to respond at all?
    Ambassador Sheehan. I would, Mr. Chairman.
    Chairman Gilman. Ambassador Sheehan.
    Ambassador Sheehan. First of all, Mr. Rohrabacher, I am 
sorry that you think that it is a joke that I will not respond 
on the issue of support for the arms for the Taliban. The 
information that I have, which I cannot respond by public 
sources, is based on intelligence methods, and I do not have 
the authority to speak about that in this session, but I will 
be glad to talk to you or other Members afterward.
    Second, regarding the responsibility the U.S. Government 
has for Afghanistan in the situation there, I do not accept 
that conclusion at all. The United States did participate in 
helping the Mujahadin reject the Soviet occupation in the mid-
1980's, and that was a policy that I think was a correct one at 
that time.
    The situation in Afghanistan, the deterioration of that 
state since 1979, has primarily to do with the situation in 
Afghanistan. Certainly there were those responsible, whether it 
was the Soviet occupiers or those who were involved in the 
civil war that has waged there for 20 years, but the idea that 
the U.S. Government is responsible for everything in 
Afghanistan is not true.
    The idea that we support the Taliban I also reject, as 
well, completely. I have spent 18 months in this job leading 
the effort within the U.S. Government and around the world to 
bring pressure on the Taliban. After the bombing of the 
embassies in East Africa, when I got hired for this job, I have 
made it my sole effort, my primary effort in this job to bring 
pressure on that regime.
    The U.S. Government leads that effort in providing pressure 
on that regime. My office leads that effort within the U.S. 
Government. We started with an executive order in August 1999 
that brought sanctions to bear on the Taliban. We led the 
effort in the United Nations to bring international sanctions 
against them.
    We are also leading the effort internationally right now to 
look at further measures against the Taliban. It is the U.S. 
Government that is leading that effort. We are ahead of 
everybody else to bring pressure on the Taliban, and the 
Taliban knows it. Those other member states within the United 
Nations and the other communities know our efforts to bring 
pressure to bear on that organization because of its support 
for terrorism.
    Chairman Gilman. Thank you.
    Mr. Eastham, did you want to comment?
    Mr. Eastham. Yes, sir, I would.
    I would be happy to defend Mr. Inderfurth if you would 
like, Mr. Rohrabacher, even if he is not here in person.
    I would just note that I have spent nearly 15 years of my 
life working on this part of the world. I was with the 
Mujahadin at Peshawar from 1984 to 1987. I was in the consulate 
at Peshawar at that time, and I have been back on this account 
now. I began my 6th year on the South Asia account this time 
around this week.
    I was in Pakistan when you were trying your effort to put 
airdrop assistance into Bamiyan. So I am quite familiar with 
the history of the whole episode.
    And I can say that at no point, at no point in the last 6 
years has the United States of America offered its support to 
the Taliban. This is why I think that despite the fact we have 
provided you nearly 1,000 documents in response to the requests 
of the Chairman that you have not been able to find the support 
for the Taliban, because it is not there.
    Mr. Rohrabacher. That is incorrect, by the way, and I will 
state that for the record. That is incorrect. I have found 
several references and documents that have been kept from me 
indicating what our policy formation about the Taliban has 
been. So that it not accurate.
    Mr. Eastham. Well, we have a fundamental difference of 
opinion then about the record of what this Administration has 
done with respect to the Taliban.
    But I will say that our goals with respect to the Taliban 
have shifted over the past 2 years almost since the East Africa 
bombings. When the Taliban first came into power in 
Afghanistan, we had an agenda which addressed terrorism, 
narcotics, human rights including the rights of women, and 
bringing peace to Afghanistan. We tried to address all of those 
at the same time.
    After the East Africa bombing, the terrorism problem became 
much more acute and a much higher priority in terms of what we 
were doing, but we have been addressing all of these issues 
since the first day the Taliban came into being, and 
particularly since they came to power in Kabul.
    Thank you very much, Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I just had a couple of questions I wanted to ask Mr. 
Eastham.
     Is Afghanistan currently a full fledged member of the 
United Nations?
    Mr. Eastham. Yes, it is.
    Mr. Faleomavaega. And by all standards, 187 members of the 
United Nations recognized the sovereignty of Afghanistan 
through the Taliban?
    Mr. Eastham. I am not an expert on this, but I think I can 
address it in terms general enough that I do not make a major 
mistake.
    Afghanistan's credentials as a member of the United Nations 
have never been rejected by the credentials committee, and the 
Northern Alliance delegation, the delegation representing the 
entity headed by Burhannudin Rabbani still occupies the seat of 
Afghanistan at the United Nations.
    At the same time the Taliban has a presence in New York as 
a group, but they do not sit in United Nations councils.
    Mr. Faleomavaega. The Taliban group does not sit in the 
United Nations council?
    Mr. Eastham. That is correct.
    Mr. Faleomavaega. But by all legitimacy, all other nations 
do recognize the Taliban as the government of Afghanistan in 
its bilateral as well as multilateral relations?
    Mr. Eastham. No, that is not correct. There are only three 
countries that have formally recognized the Taliban as the 
governing entity in Afghanistan. Those three are, as Ambassador 
Sheehan mentioned, Saudi Arabia, the UAE, and Pakistan. No 
other country has, to my knowledge, established formal 
diplomatic relations or recognized the Taliban as the 
legitimate government of Afghanistan.
    Mr. Faleomavaega. When the Soviet Union invaded 
Afghanistan, Afghanistan and Pakistan are our closest allies 
and we committed a tremendous amount of arms and assistance to 
these two countries to fight Soviet invasion; is that correct?
    Mr. Eastham. That's correct.
    Mr. Faleomavaega. And what was the approximate amount in 
value of what we gave in terms of armaments and everything to 
these two countries to fight Soviet invasion?
    Mr. Eastham. I cannot characterize any amounts which might 
have been provided under programs other than the assistance 
provided Pakistan. With respect to Pakistan, we provided 
something in the neighborhood of $3 billion, $3.2 billion in 
official assistance from 1982 until the imposition of sanctions 
in 1990.
    Mr. Faleomavaega. I wanted to ask Secretary Sheehan. You 
mentioned that you still have concerns about the policies that 
the Pakistani Government has concerning terrorism, and I want 
to know what specific policies does the Pakistani Government 
have that is of concern to the Administration.
    Ambassador Sheehan. We have concerns on both fronts, the 
east and the west. In the east, starting with Kashmir, we have 
concerns about the Pakistani Government, particularly their 
intelligence service support to groups that we have designated 
as foreign terrorist organizations and support for those groups 
that are operating in Kashmir in that situation there.
    Second, and of more immediate concern to me, is Pakistan's 
long relationship with the Taliban, which started in late 1994 
when the Taliban emerged in Afghanistan and continues to this 
day. They are the primary relationship, the Taliban, that 
Pakistan has.
    But as I mentioned in my remarks, it is a complicated one. 
The Pakistanis increasingly understand, I believe, they 
increasingly understand the threat that the Taliban and its 
policies have and the backwash back into Pakistan itself.
    So we have concerns with the Pakistanis on both of those 
issues that we have talked to them about at the highest levels.
    Mr. Faleomavaega. As you know, the political situation in 
Pakistan has also been very serious. We have a military general 
who felt very strongly that he had to take control of the 
government because of the problems. Do you think that maybe it 
is not because that they are not anti-terrorist but because 
they just do not have the proper resources to properly control 
their borders when these terrorists go through its territories?
    What are we doing to give assistance to the Pakistani 
Government to alleviate this problem perhaps? Are we assisting 
them accordingly?
    Ambassador Sheehan. I think the chief executive, Mucharev, 
definitely has his hands full, and as he has said many times 
before, his primary concern is turning around the economy in 
Pakistan, which is truly in tough shape.
    We do support Pakistan in a variety of different ways, and 
perhaps Al Eastham is better equipped to answer that question. 
We have had long ranging consultations with them on how to help 
them move in the proper directions in terms of democratic 
reform, in terms of economic reform, which will give them the 
strength politically to make some of the tough decisions they 
have to make regarding terrorism.
    Mr. Faleomavaega. You know, there is a sense of hesitancy. 
If I were a Pakistani leader, I remember a couple of years ago, 
and my good friend from California will recall, Pakistan paid 
$600 million up front for the aircraft that we were supposed to 
deliver, and we never did.
    How are we to deal with other countries if we do not keep 
our promises in that respect?
    Mr. Eastham. Well, we reached an understanding with the 
Pakistan Government which settled that claim a year ago, and we 
are in the process of implementing a settlement which is 
satisfactory to both sides regarding the question of the 
aircraft.
    The aircraft delivery was denied, however, I would note, 
because of legislation which required a Presidential 
certification relating to the possession of nuclear weapons by 
Pakistan. We were constrained by the legislative factor.
    We also have a considerable burden of sanctions relating to 
Pakistan in the nuclear field, potentially in the terrorism, 
religious freedom, and narcotics fields, and the ultimate 
sanction which exists now, which is the sanction against U.S. 
assistance----
    Mr. Faleomavaega. My point----
    Chairman Gilman. The gentleman's time has expired.
    Mr. Faleomavaega. My time has, but I just want to make my 
point here, which the fact that this government or this country 
paid $600 million, and all of a sudden we have all kinds of 
restrictions, and then we hung onto their money for years until 
just now we made this settlement, and to me that is very 
unfair. It is one sided.
    Thank you, Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Chairman Gilman. We will be continuing right through the 
vote.
    Mr. Royce. Mr. Chairman, I am particularly concerned about 
the social stability of Pakistan. Regional security is at risk 
of being seriously undermined if the troubling social trends we 
have seen continue. I am especially concerned about the Madras 
schools whose curriculum encourages radicalism, and as you 
recognized, Ambassador Sheehan, in your testimony, you 
mentioned anti-Americanism as well.
    This is the same style education which gave rise to the 
Taliban and its militarism and the Taliban's horrible human 
rights practices, especially with respect to women. I think 
there's a direct cause and effect between this type of 
propaganda that occurs in the schools.
    Now, Pakistan, in my view, is on dangerous ground with the 
operations of these schools, and I believe that the 
continuation of this education threatens the very foundation of 
the Pakistani state, and I think it threatens India, and I 
think it threatens the entire region.
    I have spoken with Pakistani Government officials and have 
been told that General Musharraf is working very hard to 
emphasize the teaching of science and the teaching of 
technology in these schools and trying to develop a different 
curriculum, one that would contribute to economic development 
and lift Pakistanis out of poverty.
    I also wanted to recognize your statement in your report, 
Ambassador, where you say terrorism is a perversion of the 
teachings of Islam, and I want to commend you for making that 
observation in your report.
    My question, though, is to what extent is the central 
government of Pakistan having success in modifying what these 
schools are teaching Pakistan's young people. You discuss in 
your testimony their intentions. Have there been effective 
actions that are occurring there?
    As I say, I think this is cause and effect, and I would 
like to know your observation.
    Ambassador Sheehan. Let me take a first crack, Mr. 
Congressman. I am sure Mr. Eastham will have some comment as 
well.
    Mr. Royce. Sure.
    Ambassador Sheehan. I am glad you asked the question about 
Madrases. It is an important one, and one that has to be 
carefully reviewed. This is an issue that has been of concern 
with me from the first day on the job.
    Madrases are nothing more than schools that have filled a 
vacuum in Pakistan where there are very often no schools or bad 
schools, and many Madrases are good schools run by legitimate 
people with the proper purpose in mind, to educate their 
children.
    There is a small percentage of them that are of concern to 
us. Those are ones that have a radical or extreme underpinning, 
that promote ideologies that are threatening. In fact, some of 
the Madrases along the border between Pakistan and Afghanistan 
contributed to the radicalization of many of the fighters that 
now are of great concern to us.
    The issue of education in Pakistan is a fundamental one, 
and the issue of Madrases is a careful one for the Pakistani 
Administration to deal with. They have talked to us about 
wanting to gain control of the small number of those extreme 
Madrases and shutting them down, and also to have better 
control of the curriculum of some of the other Madrases that 
are trying to do the right thing educating the youth of 
Pakistan.
    So it is a complicated question, one that I think the 
Pakistani Government understands. They understand also the 
sensitivity of the issue and are working to address it.
    The progress will not be measured in the short term, Mr. 
Congressman. It will take time, and we will have to see what 
success they have in addressing that issue.
    Mr. Royce. Well, I commend you for your focus on education 
and propaganda because that question and which direction that 
takes is going to have a very real consequence in terms of 
terrorism in very short order.
    Let me also make the observation to the extent that we can 
de-escalate tensions between Pakistan and India and reduce the 
overall budget dedicated to armaments, those are funds in South 
Asia that instead can go into public education so that there is 
not the need for the development, the creation of these 
alternative sources of education.
    Part of the problem in South Asia is the degree of the 
budgets in these countries that goes toward military armaments.
    Now, I would like just for a second to bring up another 
issue that is a little bit outside the scope of this hearing; 
but I serve as Chairman of the Africa Subcommittee, and in 
reading your report, it mentions the Revolutionary United Front 
and Sierra Leone. This is a Libyan trained and Liberian backed 
organization whose practice has been cutting off the arms and 
legs of little children in Sierra Leone.
    If you go into Freetown, there are several thousand 
amputees, many of them as young as 2 years old. That 
organization, known as the RUF, has made war on a 
democratically-elected government and should be listed as a 
terrorist organization. I would hope you would consider in your 
next report doing so.
    I say that because many Members of this Committee, 
including the Ranking Member, including the Chairman of this 
Committee, have spent considerable time on this issue of Sierra 
Leone, and this report should reflect the reality of what is 
happening on the ground. I do not feel that was reflected by 
the fact that RUF is not mentioned as one of these 
organizations.
    Chairman Gilman. The gentleman's time has expired.
    Ms. McKinney.
    Mr. Royce. Could I have a response to that though, Mr. 
Chairman, if I could, on the RUF especially?
    Ambassador Sheehan. We will review the RUF during this 
year, as well as before the end of our 2-year period. I am 
familiar with that organization. Much of the activity they are 
involved with falls more in the box of war criminality, which 
is a heinous crime in either case. Whether they fit into the 
box of foreign terrorist organization is under review, Mr. 
Congressman, and I will stay in touch with you on that.
    Mr. Royce. Thank you, Ambassador.
    Thank you, Mr. Chairman.
    Chairman Gilman. Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman.
    I would just like to say to Mr. Sheehan that I think that 
that is a totally inadequate and insufficient response to that 
question. I would like Chairman Royce to know that on May 6, 
1999, I wrote a letter to the President, to the Secretary of 
State, and I presume it got down to you as well, asking for the 
designation of RUF as a terrorist organization, and I can tell 
you that I got not a single straight answer from this 
Administration in response to that.
    Now, it appears to me that this Administration has cleaved 
itself, in its policy, to rapists of 12-year-old little girls 
and of hand choppers. So that response is totally inadequate. 
You have had it under review for far too long, and you still 
have not done anything about it, and you are still supporting 
the RUF.
    I would also like to associate myself with the remarks of 
Congressman Faleomavaega and Congressman Rohrabacher, too. It 
appears to me that the State Department is excellent at writing 
revisionist history. In Mr. Sheehan's testimony, you state that 
this instability can be started with the Soviet invasion of 
Afghanistan and the decade-long civil war which followed.
    That kind of passive language reminds me about what has 
been said about Mozambique by the opponents of Frelimo and that 
civil war that was visited upon Mozambique most unnecessarily; 
by the opponents of MPLA and the civil war that was visited 
upon Angola by those who opposed MPLA; about the civil war that 
was visited upon South Africa by the opponents of the ANC, and 
in each of those instances it was U.S. policy to support the 
other guys.
    And so now we get to hear these testimonies that include 
the lack of information in terms of the U.S. role. Congressman 
Faleomavaega and Congressman Rohrabacher are absolutely right 
that the United States did have a role to play in the current 
situation in Afghanistan. We provided weapons there, and we 
left those weapons there. And so if there is any instability, 
we do not need to just point the finger and say that the 
problem is Afghanistan's, as you have said earlier. The problem 
is also ours, and we need to deal with that.
    Additionally, and I guess finally, on page 6, Mr. Sheehan, 
of your written testimony you say if there is a criminal in 
your basement and you aware that he has been conducting 
criminal activities from your house, even if you are not 
involved in the crimes you are responsible for them. In fact, 
your willingness to give him refuge makes you complicit in his 
actions, past and present.
    I would just suggest that that message that you delivered 
to the Taliban's Foreign Minister is also applicable to the 
United States itself, and it certainly ought to be applicable 
to the policies that we have formulated and pursued with 
respect to Africa. We have supported criminals on that 
continent, continue to support criminals on that continent, and 
for some reason seem incapable of making people pay for the 
crimes that they commit, and of course, we are complicit in 
those crimes.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher [presiding]. Thank you very much.
    Would you like to respond, Ambassador?
    Ms. McKinney. No need for a response because you will not 
get anything of any substance.
    Ambassador Sheehan. I will respond, Mr. Congressman.
    First of all, on the RUF: Murder, rape, cutting off of arms 
are heinous crimes. They are not necessarily terrorism. They 
can be terrorism, but not necessarily international terrorism 
by the definition that we are required to respond to by the 
legislation that we are given.
    My office reviews the designation of foreign terrorist 
organizations, and I receive no pressure. If I got pressure 
from anywhere else in the building, it would have no effect on 
me. If I determine, if our office determines that the RUF meets 
the criteria to be designated as a foreign terrorist 
organization by the criteria of the legislation that is clearly 
spelled out, we will do so.
    Second, regarding our role in Afghanistan, I have 
repeatedly said many times and before we have played a role in 
Afghanistan in the 1980's, one I thought was an appropriate one 
at that time, and contributed to the situation there. I think 
we should acknowledge that and be part of the solution in 
Afghanistan.
    But I do not think the U.S. Government is responsible in 
the entirety for the situation, for the chaos and suffering in 
Afghanistan, or for the rise of terrorism from that region.
    Mr. Rohrabacher. Thank you very much.
    Well, I am the Chairman. So I have a little prerogative. 
What a miracle this is. I actually have more than 5 minutes.
    Before I go on, this Committee will recess as we get into 
the next vote, and Chairman Gilman will be back. In the 
meantime I will do my mischief.
    First of all, let's talk a little bit about terrorism. 
Terrorism is not just when someone who is outside government 
commits an act of violence against unarmed opponents, whether 
civilians, noncombatants, etc. Terrorism can also be conducted 
by a government, and there are lots of terrorist examples of 
what government does at times, for example, in the Kashmir, and 
let us not forget that when we are discussing South Asia.
    To make matters worse, you have terrorism, as I stated 
before, when there is a lack of democracy, and in the Kashmir 
and Dramu and other places where not as much, but other 
terrorist acts against Christians and Seeks and others 
throughout India, but at least in the Kashmir there has been a 
denial of the democratic process.
    Now, wouldn't the democratic process help solve this 
situation in Kashmir?
    Ambassador Sheehan. Mr. Chairman, I believe that in all 
parts of the world where I face the threat of terrorism that 
democratic processes, the strengthening of state institutions, 
and particularly democratic state institutions in the long term 
is the remedy.
    Mr. Rohrabacher. Right. Because in Afghanistan if they had 
a more democratic type government--and I have been pushing as 
you know for the king to come back and serve as a transition 
toward a more democratic society--people would have a chance to 
vote and express themselves and to weed out these evil people 
who are involved in drug dealing and repressing of their own 
people, the repressing of the women population in Afghanistan. 
So that would actually help if we had a more democratically 
oriented government there as well, wouldn't it?
    Ambassador Sheehan. That is correct.
    Mr. Rohrabacher. All right. Let me just say that in your 
denials to the charges that I made, you were very good at 
general denials, but there was no denial of some specific 
charges. So I would like to address you about them now.
    I charged that the aid that the United States has been 
giving has been going to the Taliban controlled territories, 
especially during that time period when one-third of 
Afghanistan was being controlled by non and anti-Taliban 
forces. Specifically I used the example of the Bamiyan effort 
in which we tried to help the folks down there who my sources 
said were in great deprivation and starving, and the State 
Department undermined that effort.
    And we mentioned earlier there is an aid program going on 
to Afghanistan. Ten percent of Afghanistan is still controlled 
by anti-Taliban forces. Is any of the aid that we are giving 
going to this anti-Taliban area?
    Ambassador Sheehan. Mr. Chairman, I think I will defer to 
Mr. Eastham. I know that since my tenure in this job in the 
last 18 months or so that I have seen no evidence of that type 
of policy, but for previous time I will let Al answer.
    Mr. Eastham. The answer to the question is, yes, there is 
aid flowing to all areas in Afghanistan. That is a function, 
however, of accessibility, of how you get it to them. There is 
assistance which flows through the United Nations, which is the 
implementers of the program, into the north via Tajikistan and 
also through the Chitral area of Pakistan, as well as to the 80 
percent of the country that----
    Mr. Rohrabacher. OK. So your answer is, yes, that currently 
that one area in the Panjsher Valley now controlled by 
Commander Masood, they do receive humanitarian supplies.
    Mr. Eastham. I cannot take you specifically to the Panjsher 
Valley because access to the Panjsher Valley is blocked from 
the south by the Taliban.
    Mr. Rohrabacher. But, of course----
    Mr. Eastham. In order to get----
    Mr. Rohrabacher [continuing]. It is not blocked from 
Tajikistan, right.
    Mr. Eastham. Yes, but there is assistance which flows into 
all areas of Afghanistan through these U.N. programs that we 
support.
    Mr. Rohrabacher. OK. You're on the record. Thank you very 
much. That is not what my source is saying.
    Mr. Eastham. Now, with respect to Bamiyan, I want to take 
you back to the period 2 or 3 years ago that you are referring 
to. In fact, at around that same time I made a trip from 
Pakistan to Kandahar to talk to the Taliban about the blockade 
which they had imposed at the time upon assistance to Bamiyan 
because at the time Bamiyan was controlled by non-Taliban 
forces from the Hazara people there.
    One of the main effects of the trip by Mr. Richardson and 
Mr. Inderfurth that you have so criticized was to attempt to 
persuade the Taliban, in fact, to lift that very blockade of 
Bamiyan, which we followed up with discussion in Islamabad in 
which the Taliban did, in fact, agree to a partial lifting to 
enable foodstuffs to go into Bamiyan.
    Mr. Rohrabacher. I see. So we traded it off for the 
Taliban. They were going to lift their blockade, and we were 
going to disarm all of their opponents.
    Mr. Eastham. No, sir, that is not the case.
    Mr. Rohrabacher. OK. Well, go to disarming the Taliban's 
opponents, and by the way, this has been reconfirmed in 
everything that I have read, both official and unofficial.
    Are you trying to tell us now that the State Department was 
not at that crucial moment, when the Taliban was vulnerable, 
disarming the Taliban's opponents? Did not Mr. Inderfurth and 
the State Department contact all of the support groups that 
were helping the anti-Taliban forces and ask them to cease 
their flow of military supplies to the anti-Taliban forces?
    Mr. Eastham. At that time we were trying to construct a 
coalition which would cutoff support for all forces in 
Afghanistan from the outside.
    Mr. Rohrabacher. And I take it that is a yes to my 
question----
    Mr. Eastham. No, sir, you have left out----
    Mr. Rohrabacher. But the Taliban----
    Mr. Eastham [continuing]. The cutting off the Taliban part.
    Mr. Rohrabacher. But the Taliban were not included. What 
happened right after all of those other support systems to the 
resistance groups had been dismantled because of Mr. 
Inderfurth's and Mr. Richardson's appeal and the State 
Department's appeal? What happened not only immediately after? 
Even while you were making that appeal, what happened in 
Pakistan?
    Was there an airlift of supplies, military supplies between 
Pakistan and Kabul and the forward elements of the Taliban 
forces?
    The answer is yes. I know.
    Mr. Eastham. The answer is----
    Mr. Rohrabacher. You told me because----
    Mr. Eastham. The answer is----
    Mr. Rohrabacher [continuing]. It is secret information.
    Mr. Eastham. The answer is closed session if you would like 
to dredge up that record.
    Mr. Rohrabacher. All right. OK.
    Mr. Eastham. That would be fine.
    Mr. Rohrabacher. I do not have to go into closed session 
because I did not get that information from any classified 
document. That information is available to anybody watching the 
scene up there. They know exactly what happened.
    Mr. Inderfurth; Mr. Bill Richardson, a good friend of mine, 
doing the bidding of this Administration, basically convinced 
the anti-Taliban's mentors to quit providing them the weapons 
they needed with some scheme that the Taliban were then going 
to lay down their arms, and immediately thereafter Pakistan 
started a massive shift of military supplies which resulted in 
the total defeat of the anti-Taliban forces.
    Now, this is either collusion or incompetence on the part 
of the State Department as far as this Congressman is 
concerned. The people will have to look at the record and 
determine that for themselves, and when this Congressman says 
this Administration has a covert policy of supporting the 
Taliban, I see examples of what I just described over and over 
and over again.
    I have read the documents you have given me, and the 
documents over and over again to me indicate that the State 
Department has been telling the Taliban, ``Hand this over, bin 
Laden, and we can deal with you.''
    Now, I am not going to quote because it is secret 
information. None of the documents I have seen, by the way, 
should have been classified, and let's get to those documents.
    Why haven't I been provided any documents about State 
Department analysis during the formation period of the Taliban 
and about whether or not the Taliban was a good force or a bad 
force? Why have none of those documents reached my desk after 2 
years?
    Mr. Eastham. Congressman, we were responding to a specific 
request dealing with a specific time period, which I believe 
the commencing period of the request for documents was after 
the time period you are talking about. We were asked to provide 
documents by the Chairman of this Committee from 1996 to 1999.
    Mr. Rohrabacher. Ah, I see. You found a loophole in the 
Chairman's wording.
    Mr. Eastham. No, sir. We were responding to the Chairman's 
request.
    Mr. Rohrabacher. You found a loophole in the Chairman's 
wording of his request so as not to provide me those documents. 
You know, I am the only one here. I am not the Chairman of the 
Committee. I would never get the opportunity to have a back-
and-forth with you except in times like this.
    The State Department has taken full advantage of its use of 
words in order not to get this information out. I am looking 
forward to more documents.
    I will say this. I have spent hours overlooking those 
documents, and there has been nothing in those documents to 
persuade me that my charges that this Administration has been 
covertly supporting the Taliban is not accurate.
    Feel free to respond to that.
    Mr. Eastham. It is not true. I have to negate the whole 
thesis that you are operating under.
    Mr. Rohrabacher. All right. OK. Then the other option is 
the State Department is so incompetent that we have done things 
that helped the Taliban and put them in a position of having 
hundreds of millions of dollars of drug money and power in 
Afghanistan and undercutting the anti-Taliban forces. This is 
not intent. This is just incompetence.
    Mr. Eastham. That is a judgment you can make.
    Mr. Rohrabacher. All right.
    Mr. Eastham. And if you want to make that judgment, that is 
up to you, Congressman.
    Mr. Rohrabacher. OK.
    Mr. Eastham. I would just observe that it is considerably 
more complex than that to deal with people over whom we have so 
little influence as the Taliban.
    I have been myself, by my count six times, into Afghanistan 
on both the northern side and the southern side, and I have met 
innumerable times with Taliban officials to attempt to achieve 
U.S. objectives, and I have to tell you that it is a tough job.
    Mr. Rohrabacher. I believe it is.
    Mr. Eastham. I would like to introduce you to some of them 
some time.
    Mr. Rohrabacher. Oh, I have met many Taliban. Thank you. 
And as you are aware, I have met many Taliban and have talked 
to them, especially when you disarm their opponents and you 
participate in an effort to disarm their opponents at a time 
when they are being resupplied militarily. I guess it is very 
hard for them to take us seriously when we say we are going to 
get tough with them.
    Mr. Eastham. You keep saying that, but it is not true. The 
effort----
    Mr. Rohrabacher. You are just saying----
    Mr. Eastham [continuing]. The effort was to stop the 
support for all the factions in----
    Mr. Rohrabacher. That is correct. You did not deny that we 
disarmed their opponents. You just said we were doing it with 
the Taliban as well. But as I pointed out, which you did not 
deny, the Taliban were immediately resupplied, which means that 
we were part and parcel to disarming a victim against this 
hostile, totalitarian, anti-Western, drug dealing force in 
their society. We were part and parcel of disarming the victim, 
thinking that the aggressor was going to be disarmed as well, 
but it just did not work out, at the moment when Pakistan was 
arming them, I might add.
    I have got just a couple of minutes, and then we are going 
to have to recess this. There is a 5-minute vote on. Could I 
have this on the screen, please? Can we put the vote on the 
screen?
    Two minutes. The Administration is saved again. All right. 
Let me just say I think that the Administration--Bill 
Richardson is a wonderful guy, and I think Rick Inderfurth is 
sincere. I think the record here is abysmal, and again, it is 
not state power we are talking about.
    We abandoned these people in Afghanistan, the wonderful 
people. The Taliban did not defeat the Russians. You know that. 
You were there at the time. The Taliban were not even in the 
field at that time. They did not exist. They were kept back, 
and we abandoned those wonderful, courageous people in 
Afghanistan who were not fanatics when they were fighting for 
their homeland.
    We could have come back with an Afghan policy, and this 
Congressman supports an Afghan policy that would provide a real 
commitment, $100 million for de-mining, $100 million to help 
set up a democratic process, $100 million so that we can help 
them plant other things rather than poppies for narcotics. 
Let's have a real commitment by this Administration.
    We have seen no such policy initiatives from this 
Administration, just excuses and word games, but I thank you 
both because you do a good job, and you are both patriots, and 
I appreciate that.
    This Committee is in recess.
    [Recess.]
    Mr. Gilman [presiding]. The Committee will come to order.
    Mr. Delahunt.
    Mr. Delahunt. Mr. Chairman, I would like to take a 
different line and get off of South Asia for a moment.
    On page IV of the State Department's April 2000 Report on 
Patterns of Global Terrorism, there is a paragraph. Let me read 
the paragraph into the record.

    As direct state sponsorship has declined, terrorists 
increasingly have sought refuge wherever they can. Some 
countries on the list have reduced dramatically their direct 
support of terrorism over the past years, and this is an 
encouraging sign. They still are on the list, however, usually 
for activity in two categories: harboring of past terrorists, 
some for more than 20 years, and continuing their linkages to 
designated foreign terrorist organizations. Cuba is one of the 
state sponsors that falls in this category.

    Could you amplify on that? Am I to conclude that there is 
evidence that the Castro regime is no longer in the business of 
exporting terrorism and revolution in this hemisphere? Mr. 
Sheehan, Ambassador?
    Ambassador Sheehan. Yes, Congressman. I would say regarding 
Cuba that their support for terrorism has declined dramatically 
over the years, and right now its active support for terrorism 
is scant.
    Mr. Delahunt. Is scant? You said there were some linkages 
to foreign terrorist organizations. Could you enumerate those 
organizations?
    Ambassador Sheehan. Yes, sir. The main ones we are 
concerned with are the two Colombian groups, the FARC and the 
ELN.
    Mr. Delahunt. I thought that might be the case, and I have 
a problem with that, and let me tell you what it is. Recently, 
in fact, there was a story in the Colombian press, and the 
headline is ``Cuba to play a role in Colombia peace talks.''
    You are not suggesting that we should leave Cuba on this 
list because of their involvement in the Colombian peace 
process, which I understand has been done at the behest of the 
Colombian Government.
    For the record, I think it is important to note that there 
are four other countries that are involved in this multilateral 
effort to move the peace process along. Those countries are 
France, Spain, Norway, and Switzerland, and they are described 
as the friends of the process with the ELN, and I am aware 
obviously of the history of the ELN and its historical 
relationship with the Castro regime.
    But I would suggest that this is an occasion where we would 
welcome, if you will, Cuban involvement in terms of moving a 
peace process along that I would suggest is the ultimate answer 
if we are going to do what we hope to do in terms of staunching 
the flow of cocaine and heroin into the United States.
    I would be interested in your response, Mr. Ambassador.
    Ambassador Sheehan. Yes, sir. I think the issue of Cuban 
involvement with the FARC and the ELN is not really the 
principal one. I do not think that alone would keep them on the 
sponsorship list if they were able to assure us that no 
terrorists of those organizations are there, because those are 
very violent organizations that threaten American lives in 
Colombia every day and are responsible for the deaths of many 
Americans and damage of a lot of material and property.
    So their relationship, those groups, is a little different 
than the Europeans, but I think that one of the----
    Mr. Delahunt. Can I interrupt, Ambassador?
    Ambassador Sheehan. Yes, sir.
    Mr. Delahunt. I think it is important to note that the FARC 
has a physical presence and an office in Mexico, and the ELN 
has a physical presence in Germany, and you know, both the FARC 
and ELN have a presence in Spain.
    You know, these distinctions are very, very subtle that you 
are making here.
    Ambassador Sheehan. Right.
    Mr. Delahunt. And, you know, these nuances are almost 
imperceptible to my eye.
    Ambassador Sheehan. Right. The other reason Cuba is on the 
list of state sponsorship, because it provides safe haven to 
numerous terrorists that we are interested in from the past, 
and that is why I mention in here many of them go way back.
    Some of them are the Machiteros that were involved in the 
killings of Americans in Puerto Rico and other places and 
providing safe haven to those former terrorists. I did, Mr. 
Delahunt, personally write this introduction, and what I was 
saying in here, I was signaling to countries like Cuba that 
there is a difference, their support for terrorism between now 
and before, and that their record for support for terrorism is 
very small, but they do have issues.
    If they want to address those issues and want to move 
forward on those issues, we would welcome that, as we would 
with all seven of the state sponsors. What I was trying to do 
in my report is signal to them that, yes, their issues are 
relatively small, dramatically different from the Cold War Era. 
That era has passed us, and they could take steps to address 
these issues and be considered for the list in the future.
    Mr. Delahunt. If I could indulge the Chair for one more 
question.
    Chairman Gilman. Thank you, Mr. Delahunt.
    Mr. Delahunt. Just one more question, Mr. Chairman.
    Chairman Gilman. Without objection.
    Mr. Delahunt. That brings to mind a recommendation that was 
put forth by Ambassador Bremmer and his bipartisan commission 
when he suggested that there be an intermediate level or 
designation in terms of a government as a state sponsor of 
terrorism.
    I am sure you are aware of that. Something less than an 
officially designated state sponsor or terrorism, but something 
that would, I believe, give the American people and Members of 
this institution, as well as Members of the Senate, a more 
realistic and accurate appraisal of where these particular 
states are in terms of the hierarchy of supporting terrorism.
    Does the Administration have a position? Have you reflected 
on the recommendation by the commission?
    Ambassador Sheehan. Congressman, I have been aware of this 
issue since I took this job, and that the perception among some 
around the world is that once you get on the list of state 
sponsorship, you never get off, and that list is deemed as 
political by some.
    In that regard, I have looked to try to very clearly 
articulate why countries are on the list and what it would take 
to get them off of the list.
    I studied carefully Jerry Bremmer's proposal. I have 
discussed it primarily at the staff level here in the Congress, 
to find more flexible approaches to find another step on or off 
the list, what might more accurately reflect the real situation 
of support for terrorism by different states, and we have not 
come up with a formal position on that yet.
    There are some drawbacks that I have heard from Members, 
staff members of this Committee, as well as on the Senate side, 
also some concerns within the Administration, but I think we 
are carefully reviewing it.
    I understand the desirability of that, what benefits it 
could have to us, and we should have a response hopefully soon 
on whether we have a proposal for you.
    Mr. Delahunt. I would urge that because I really think it 
is very important to recognize that in this particular area 
there are varying shades of gray, and it is very difficult, as 
you well know, to describe things in black and white terms 
without creating a distorted picture.
    Chairman Gilman. The gentleman's time is expired.
    Mr. Delahunt. Thank you.
    Chairman Gilman. Dr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman.
    And we thank you, Mr. Ambassador, for being here.
    I am concerned about terrorism for a lot of reasons. 
Personally I feel that all terrorists are like all dictators. 
They are all cowards, and this is their way of overcoming the 
fact that they are usually not too well educated, and they are 
misguided, and they try to inflict some of their misery on 
other people.
    I know that in the past Pakistan has been a friend and an 
ally, but I am concerned that they perhaps are not ferreting 
out as many of the terrorist as they should, and I feel like 
they could really do a lot more to get rid of the terrorists 
within the limits of their country.
    Do you feel the fact that Pakistan is spending so much on 
their nuclear weapons program could diminish the amount of 
resources they have to run an effective anti-terrorism program? 
Could there be a correlation there?
    Ambassador Sheehan. Congressman, I am not sure, but I would 
say this in answering your question, that Pakistan, in order to 
develop the political space to take on some of these terrorist 
issues--because it is a political issue for them to take on 
some of these groups--in order to have the political space in 
order to do that, they need to take certain steps to reform 
themselves politically, economically, and socially. Clearly a 
smaller defense budget would help them, enable them to take on 
some of this reform.
    So if there is a relationship in terms of defense spending 
and their ability to reform, their defense budget takes a huge 
chunk of their public sector funding. If they were able to put 
more of those resources in some of those other issues, it might 
give the Pakistani Government more space to move in the 
direction we would like them to go on counterterrorism.
    Mr. Cooksey. Good. Thank you.
    At times I feel that too many Americans and maybe even some 
Americans in Congress become complacent about the threat of 
terrorism and will not be concerned about it again until we 
have some more acts of terrorism like we had a few years ago, 
both from Americans and from some people from this South Asia 
area.
    Do you feel that today the State Department has adequate 
resources to conduct surveillance and anti-terrorism 
activities, and if so, why, and if not, what additional 
resources would it take to get the State Department up to the 
level that we would consider a top notch, top drawer type level 
of anti-terrorism activity?
    Ambassador Sheehan. Thank you, Congressman. I appreciate 
that question.
    There are two parts of it. The first part is do we have the 
security funding to do the protection of our embassies. 
Actually Dave Carpenter, my colleague who does diplomatic 
security, is best prepared to answer that. I am sure he has 
laid that out up to Congress, what resources he needs.
    But I would say this on the parts that I manage, which 
overlap with Dave's in a lot of areas. The anti-terrorism 
assistance program, we have asked for $38 million this year. We 
have got the Administration's request. We are hoping to get 
full funding for that when the appropriations committees come 
together in conference later on in the year. Right now I 
believe the House side has given us full funding, but the 
Senate has not.
    We also asked for $40 million to fund a counterterrorism 
training center which would help train diplomatic security 
personnel, as well as provide training for those security 
officials that we work with overseas. That is really the key. 
They are the front line of defense for Americans in our battle 
against counterterrorism. They help protect our embassies. They 
help protect airports that American people travel through, the 
borders. There are a lot of Americans overseas. These are the 
front line of defense. They are our counterparts on the 
intelligence and law enforcement.
    We need a first class facility in order to train those 
people to build the type of relationships we need. The 
Administration has asked for funding for that, and we are 
having treat difficulty in the appropriations process, and we 
certainly could use your support on that, sir.
    Mr. Cooksey. You say you want to build a facility to do 
this anti-terrorism training?
    Ambassador Sheehan. That is correct. Right now we train in 
seven different locations around the country on a catch-can 
basis, sort of standing room only types of arrangements with 
different facilities. It is just not a way to run a railroad.
    We would like to create our own training facility where we 
can bring in these people and establish the long term 
relationships that are really going to pay dividends for the 
security not only of our embassies, but for Americans that 
travel, live, and work abroad.
    Mr. Cooksey. Well, I bend over backward not to bring up 
parochial issues into my discussion, but since you raise the 
issue, the U.S. Marshal's training site is within my district, 
and I visited it several times. It is at Camp Beauregard. It 
used to be Fort Beauregard, and they have really a top 
facility. Do you use that at all?
    If I am not mistaken, they do some State Department things.
    Ambassador Sheehan. We do some stuff there, yes, 
Congressman, a great facility.
    Mr. Cooksey. Well, I would like to formally invite you to 
do all of your training there, and I guarantee you we will work 
to get what you need.
    Mr. Delahunt. If the gentleman would yield for just a 
moment.
    Mr. Cooksey. Sure, I will yield to my friend from 
Massachusetts.
    Mr. Delahunt. Well, I just wanted to point out that there 
is a military base on Cape Cod, no swamps, no bugs, the sounds 
of waves and sands that is 5,000 acres there, Ambassador, and I 
am sure that you would be warmly welcomed there.
    Mr. Cooksey. I would tell my friend from Massachusetts that 
after I got out of the Air Force I was in the Guard for a 
while, and we trained up there one summer. It is a nice 
facility. That was in the summer of 1970 or 1971, but they had 
some narrow bridges up there, and it is just not an ideal place 
to go.
    Mr. Burton [presiding]. 1970 to 1971.
    Let me, I guess, conclude this hearing by asking a few 
questions. Mr. Delahunt talked about the connection, I believe, 
between Cuba and the FARC guerrillas and the ELN. The other 
committee on which I serve is the Government Reform and 
Oversight Committee, and we have a subcommittee that deals with 
national security and terrorism, and we have done some work in 
that area. There is no question from the information that we 
have and pictures that we have seen that the Cuban Government 
has been working with the FARC guerrillas and the ELN.
    As a matter of fact, the leaders of the FARC guerrillas, if 
you look at pictures of them, they are wearing Che Guevara type 
berets. They use the same basic techniques that he used, and we 
believe there is a connection there, and I wonder why you folks 
are not aware of that.
    Are you aware of that?
    Ambassador Sheehan. Congressman, we are aware of the 
connections, the long connections of the FARC and the ELN to 
Cuba.
    Let me say this about the FARC and the ELN. The FARC is one 
of the more violent foreign terrorist organizations that I deal 
with, responsible for 10 Americans dead and 3 missing since 
1980.
    Mr. Burton. Right.
    Ambassador Sheehan. It is high on my list. They are 
involved in kidnapping, extortion in Colombia that is of 
enormous concern to us.
    The ELN, although not as deadly in terms of numbers, 
wreaked tremendous amount of damage to American interests in 
oil pipelines in Colombia. These are two very serious and 
dangerous terrorist organizations.
    Primarily though I would say this, Congressman, that they 
do not depend on support from Cuba. They do have links from 
Cuba, but quite frankly, as you know very well, they are able 
to generate funding and weapons right there at home.
    Mr. Burton. No, I understand. They are getting as much as 
$100 million a month from the drug cartels.
    Ambassador Sheehan. Exactly.
    Mr. Burton. And from kidnappings and everything else, but 
they do go to Cuba. They do do some training with the Cubans, 
and they are in concert with one another.
    The reason I am concerned about that, and probably Mr. 
Delahunt and others, is Venezuela is right there. We have got 
the entire Central American and the Panama Canal and everything 
that is right in that area, and if that is not handled 
properly, then that whole area could be in jeopardy.
    Cuba has always had an eye toward revolution in South 
America and Central America. That is why they supported the 
Sandinistas, the FMLN, and why Che Guevara went into South 
America in the first place. So there is a connection there, and 
I hope the State Department pays particular attention to that.
    One other thing that I would like to talk about, and I am 
sorry that I was absent. I had to go to the floor, but there 
has been a lot of talk about Pakistan, and Pakistan has been an 
ally of ours for 50 years. They helped us during the problems 
that we had in Afghanistan. They were a conduit for military 
equipment and weapons going in there to stop the Russians--the 
Soviet Union. They worked with us in Somalia. They worked with 
us during the entire Cold War. They have always been an ally of 
ours.
    Whenever we talk about terrorism involving Pakistan, it 
seems that there is always a reluctance to talk about the 
problems right across the border in India. In India, we have 
half a million troops in Kashmir gang-raping women, going in 
the middle of the night, taking people out of the houses and 
killing them and torturing them, and people just disappear.
    In Punjab we have had a similar problem over the years. It 
has gone on for a long time. I have got the statistical data, 
which I will not go into, but I will submit it for the record.
    And I do not understand why we pay so much attention to our 
friend who has been with us through thick and thin, and we do 
not say anything about India who was an opponent of ours during 
the entire Cold War. They were a nonaligned nation that built 
Soviet MIG's. They built Soviet tanks. They were on the Soviet 
side when [Flight] 007 was shot down by the Soviets. They were 
the only nation in the world that did not condemn them.
    Yet we continue to kick our friend for 50 years, Pakistan, 
in the teeth, and we do not pay any attention to the problems 
that we see in India.
    In Pakistan, when you talk about the terrorist activities, 
they worked with us on Amil Kanzi. He killed a CIA officer in 
Virginia. He was arrested by the Pakistanis and extradited to 
the United States. Ramzi Yousef was accused and convicted of 
involvement in the terrorist attack on New York's World Trade 
Center. He was arrested by Pakistani officials in Pakistan and 
extradited to the United States.
    I am not pronouncing these names right, but I think you 
know who they are.
    Sidque Odey was involved in the bombing of a U.S. embassy 
in East Africa, was apprehended by Pakistan and turned over to 
Kenyan authorities. Khalid Deek was implicated in the 1998 
bombings of U.S. embassies in East Africa, was arrested by 
Pakistan and extradited to Jordan.
    You know, Pakistan was picked as a vital area in December 
1999. The National Commission on Terrorism report, which was 
released on June 5, said Pakistan's cooperation was vital in 
warding off terrorist attacks planned for the millennium.
    You know, I just hate to see us have a hearing and attack 
somebody who does have problems. Do not misunderstand. They 
have problems, and I would like to see those resolved. I would 
like to see free and fair elections once again returned. I am 
sure you would as well.
    But the thing that concerns me is we ought to give a little 
bit of leeway and deference to those who are always there when 
we need them. They are always there when we need them.
    And then, right across the border, you look at India whom 
we show a great deal of deference to, who has not always been 
there when we need them, and I just do not understand that 
double standard, and it bothers me.
    If you would care to comment, you can.
    Ambassador Sheehan. Congressman, Pakistan is a great friend 
to the United States for a long time. I served on active duty 
in Somalia and again in Haiti. In Somalia, I served with the 
Pakistanis, and they did a great job there, and they were with 
us. I was on the phone when President Bush called the 
government of Pakistan to ask for their participation in 1992. 
I was on the NSC staff. They immediately responded and sent 
troops into Somalia. They were actually already there before we 
led the coalition in December 1992.
    Again, in 1994, I served on active duty again with the 
Pakistanis. The Deputy Force Commander in the operation in 
Haiti was a Pakistani general who was outstanding and a good 
friend and a professional officer.
    These are good friends, and it is difficult for me when I 
deal with the Pakistani counterparts on some of the tough 
issues that we have with them.
    You mentioned some of the people they have helped arrest 
over the years, and that is absolutely true, and all of those 
people are very important. The problem is that too often the 
terrorists, after they conduct an act, are heading back to 
Pakistan. Ramzi Yousef, who blew up the World Trade Center, was 
arrested in Pakistan. Odey, the other guy you mentioned who 
blew up our embassy in East Africa, hightailed back to 
Pakistan.
    That is a problem. The problem is, and, yes, they helped 
arrest them, but their policies in Afghanistan and in Kashmir 
and at home are helping to promote an environment where these 
folks are being generated out of there and coming back there 
after they conduct attacks. So it is a mixed record.
    They understand the threat. We talk to them about it 
frankly. I want to stay engaged with Pakistan and help them 
through this. They are friends.
    The threat actually, Congressman, as you know, not only 
affects us. It affects them as well, and that is why we have to 
stay working with them to address the problem.
    Mr. Burton. Let's talk about this double standard again, 
and then I will summarize and we can get on with this and let 
somebody else have the last question or two.
    You know, we have penalized Pakistan because of their 
nuclear development program, and yet India has not been 
penalized. India has a nuclear program, and we put severe 
limitations on military exports to Pakistan because they 
decided to do something that they thought was necessary to 
protect themselves in the event that there was an attack by 
India, and there have been a number of wars, as you know, 
between the two.
    And so, this double standard does exist, and I think it is 
something that the State Department and other agencies of our 
government ought to take a real hard look at. I will not 
belabor the point because my time has run out and I am going to 
yield to Mr. Delahunt, or whoever wants to finalize because you 
have to leave in about 3 minutes, and that is that Kashmir and 
Punjab continue to be real terrible tragedies in human rights 
violations. We just do not talk about that enough.
    There are 500,000 troops in Kashmir, a like number in 
Punjab. The atrocities continue. We do not do anything to put 
pressure on India to stop that, and we should because they go 
on year after year after year, and people are suffering and 
they are being tortured. Women are being gang-raped by Indian 
troops, and Amnesty International has reported on that.
    I mean it is reported on, but our State Department and our 
government seems to want to keep this on a low profile basis. 
Why, I do not understand, because we jump all over Pakistan, 
but we do not say anything about India, and when we do it is 
very, very low key.
    Mr. Eastham. I think you can take as your guide, Mr. 
Chairman, what the President of the United States did in going 
out to South Asia. We have been very clear that the desire to 
buildup a relationship with a country that has a billion people 
and that will represent a significant force in world affairs in 
the coming century is not at the expense of our old friend and 
ally Pakistan.
    I have personally lived for 5 years of my life in Pakistan, 
have significantly pleasant memories of that time. I have also 
spent a couple of years in India, and I can tell you that it is 
possible to pursue a good relationship with each of these 
countries at the same time and simultaneously. I am convinced 
of that.
    With respect to the Punjab and Kashmir situations that you 
mentioned, I had the opportunity to accompany your colleague, 
Mr. Ackerman, up to Kashmir on his trip there several years 
ago, if you will recall that. I have been working on the 
problem of Kashmir. I know the leadership both of the 
government in Kashmir as well as the opposition in the form of 
the All Parties Conference; I can tell you that we do not sweep 
that under the rug or ignore it, while at the same time pushing 
on Pakistan for different reasons.
    We are trying to address all of them at once, and I hope 
you will take that as a sincere commitment.
    Thank you very much.
    Mr. Burton. Well, I will take you at your word, but I hope 
you will make it a little higher profile because we have some 
of our Seek friends here. We have friends from Kashmir who are 
in the audience and from Pakistan, and they know very well 
first hand the problems that are existing over there, and year 
after year after year we listen to them. Our heart bleeds for 
them, and yet the conditions continue.
    We are the greatest power on earth supposedly right now, 
and we ought to be doing everything we can to end that tragedy 
over there.
    With that, Mr. Delahunt, do you have any more comments?
    Mr. Delahunt. I understand they must leave.
    Mr. Burton. If not, well, then we appreciate your being 
here, and the Committee stands adjourned.
    [At 12:38 p.m., the Committee was adjourned, subject to the 
call of the Chair.]
      
=======================================================================




                            A P P E N D I X

                             July 12, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8482.001
    
    [GRAPHIC] [TIFF OMITTED] T8482.002
    
    [GRAPHIC] [TIFF OMITTED] T8482.003
    
    [GRAPHIC] [TIFF OMITTED] T8482.004
    
    [GRAPHIC] [TIFF OMITTED] T8482.005
    
    [GRAPHIC] [TIFF OMITTED] T8482.006
    
    [GRAPHIC] [TIFF OMITTED] T8482.007
    
    [GRAPHIC] [TIFF OMITTED] T8482.008
    
    [GRAPHIC] [TIFF OMITTED] T8482.009
    
    [GRAPHIC] [TIFF OMITTED] T8482.010
    
    [GRAPHIC] [TIFF OMITTED] T8482.011
    
    [GRAPHIC] [TIFF OMITTED] T8482.012
    
    [GRAPHIC] [TIFF OMITTED] T8482.013
    
    [GRAPHIC] [TIFF OMITTED] T8482.014
    
    [GRAPHIC] [TIFF OMITTED] T8482.015
    
    [GRAPHIC] [TIFF OMITTED] T8482.016
    
    [GRAPHIC] [TIFF OMITTED] T8482.017
    
    [GRAPHIC] [TIFF OMITTED] T8482.018
    
    [GRAPHIC] [TIFF OMITTED] T8482.019
    
    [GRAPHIC] [TIFF OMITTED] T8482.020
    
    [GRAPHIC] [TIFF OMITTED] T8482.021
    
    [GRAPHIC] [TIFF OMITTED] T8482.022
    
    [GRAPHIC] [TIFF OMITTED] T8482.023
    
    [GRAPHIC] [TIFF OMITTED] T8482.024
    
    [GRAPHIC] [TIFF OMITTED] T8482.025
    
    [GRAPHIC] [TIFF OMITTED] T8482.026
    
    [GRAPHIC] [TIFF OMITTED] T8482.027
    
    [GRAPHIC] [TIFF OMITTED] T8482.028
    
    [GRAPHIC] [TIFF OMITTED] T8482.029
    
    [GRAPHIC] [TIFF OMITTED] T8482.030
    
    [GRAPHIC] [TIFF OMITTED] T8482.031
    
    [GRAPHIC] [TIFF OMITTED] T8482.032
    
    [GRAPHIC] [TIFF OMITTED] T8482.033
    

</pre></body></html>
